<html>
<title> - H.R. 123, H.R. 2498 AND H.R. 2535</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                   H.R. 123, H.R. 2498 AND H.R. 2535

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                      Tuesday, September 25, 2007

                               __________

                           Serial No. 110-45

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
38-016 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Bobby Jindal, Louisiana
Dan Boren, Oklahoma                  Louie Gohmert, Texas
John P. Sarbanes, Maryland           Tom Cole, Oklahoma
George Miller, California            Rob Bishop, Utah
Edward J. Markey, Massachusetts      Bill Shuster, Pennsylvania
Peter A. DeFazio, Oregon             Dean Heller, Nevada
Maurice D. Hinchey, New York         Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Doug Lamborn, Colorado
Ron Kind, Wisconsin                  Mary Fallin, Oklahoma
Lois Capps, California               Kevin McCarthy, California
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

              GRACE F. NAPOLITANO, California, Chairwoman
     CATHY McMORRIS RODGERS, Washington, Ranking Republican Member

Jim Costa, California                Ken Calvert, California
George Miller, California            Dean Heller, Nevada
Mark Udall, Colorado                 Doug Lamborn, Colorado
Joe Baca, California                 Mary Fallin, Oklahoma
Vacancy                              Don Young, Alaska, ex officio
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, September 25, 2007......................     1

Statement of Members:
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington...............................     5
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     2
        Prepared statement of....................................     4
    Nunes, Hon. Devin, a Representative in Congress from the 
      State of California........................................     5
        Prepared statement of....................................     5

Statement of Witnesses:
    Dreier, Hon. David, a Representative in Congress from the 
      State of California, Oral statement of.....................     7
        Statement submitted for the record.......................     8
    Garfield, Alec, Director, Water Resources Department, Tule 
      River Tribal Council, Porterville, California..............    44
        Prepared statement on H.R. 2535..........................    46
    Green, Sargeant J. ``Sarge,'' Manager, Westside Resource 
      Conservation District, and Consultant to the California 
      Water Institute, Fresno, California........................    32
        Prepared statement on H.R. 2498..........................    33
    Jensen, Donald K., Director of Public Works, City of Santa Fe 
      Springs, California........................................    14
        Prepared statement on H.R. 123...........................    15
    Larson, Philip Gregg, President, South Tule Independent Ditch 
      Company, Porterville, California...........................    50
        Prepared statement on H.R. 2535..........................    51
    Moss, Richard M., P.E., Vice President for Water Resources, 
      Provost and Pritchard Engineering Group, Inc., Visalia, 
      California.................................................    38
        Prepared statement on H.R. 2498..........................    40
    Quint, Robert, Acting Deputy Commissioner, Bureau of 
      Reclamation, U.S. Department of the Interior, Washington, 
      D.C........................................................     9
        Prepared statement on H.R. 123...........................    10
        Oral statement on H.R. 2498 and H.R. 2535................    52
        Prepared statement on H.R. 2498..........................    53
        Prepared statement on H.R. 2535..........................    54
    Whitehead, Michael L., President, San Gabriel Valley Water 
      Company, and Board Member of the San Gabriel Basin Water 
      Quality Authority, West Covina, California.................    11
        Prepared statement on H.R. 123...........................    12

Additional materials supplied:
    Chronology of Events Affect CVP/SWP Water Supplies...........    66
    Fuentes, Charles P., City Manager, City of Pico Rivera, 
      California, Frederick W. Latham, City Manager, City of 
      Santa Fe Springs, California, and Steve Helvey, City 
      Manager, City of Whittier, California, Letter submitted for 
      the record on H.R. 123.....................................    67
    Newcomer, Hon. Owen, Mayor, City of Whittier, California, 
      Letter submitted for the record on H.R. 123................    69
    Reynolds, David, Director of Federal Relations, Association 
      of California Water Associations, Letter submitted for the 
      record on H.R. 2498........................................    70
    Schafer, R.L., Tule River Association, Letter submitted for 
      the record on H.R. 2535....................................    71
    Serrano, Hon. Joseph D., Mayor, City of Santa Fe Springs, 
      California, Letter submitted for the record on H.R. 123....    72


LEGISLATIVE HEARING ON H.R. 123, TO AUTHORIZE APPROPRIATIONS FOR THE 
 SAN GABRIEL BASIN RESTORATION FUND; H.R. 2498, TO PROVIDE FOR A STUDY 
  REGARDING DEVELOPMENT OF A COMPREHENSIVE INTEGRATED REGIONAL WATER 
MANAGEMENT PLAN THAT WOULD ADDRESS FOUR GENERAL AREAS OF REGIONAL WATER 
PLANNING IN BOTH THE SAN JOAQUIN RIVER HYDROLOGIC REGION AND THE TULARE 
   LAKE HYDROLOGIC REGION, INCLUSIVE OF KERN, TULARE, KINGS, FRESNO, 
 MADERA, MERCED, STANISLAUS, AND SAN JOAQUIN COUNTIES, CALIFORNIA, AND 
 TO PROVIDE THAT SUCH PLAN BE THE GUIDE WHICH THOSE COUNTIES USE AS A 
 MECHANISM TO ADDRESS AND SOLVE LONG-TERM WATER NEEDS IN A SUSTAINABLE 
  AND EQUITABLE MANNER; AND H.R. 2535, TO DIRECT THE SECRETARY OF THE 
   INTERIOR TO CONDUCT A STUDY ON THE FEASIBILITY AND SUITABILITY OF 
 CONSTRUCTING A STORAGE RESERVOIR, OUTLET WORKS, AND A DELIVERY SYSTEM 
FOR THE TULE RIVER INDIAN TRIBE OF CALIFORNIA TO PROVIDE A WATER SUPPLY 
FOR DOMESTIC, MUNICIPAL, INDUSTRIAL, AND AGRICULTURAL PURPOSES, AND FOR 
        OTHER PURPOSES. (TULE RIVER TRIBE WATER DEVELOPMENT ACT)

                              ----------                              


                      Tuesday, September 25, 2007

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:02 a.m. in 
Room 1324, Longworth House Office Building. Hon. Grace F. 
Napolitano [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Napolitano, McMorris Rodgers, 
Costa, and Baca.
    Also Present: Representative Nunes.

       STATEMENT OF THE HONORABLE GRACE F. NAPOLITANO, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Good morning everyone. The meeting of the 
Subcommittee on Water and Power will come to order. The purpose 
of the meeting is to conduct legislative hearings on H.R. 123, 
a bill to authorize appropriations for the San Gabriel Basin 
Restoration Fund introduced by our friend and colleague, 
Congressman David Dreier of San Dimas.
    H.R. 2498, legislation that would provide for a study 
regarding the development of an integrated water management 
plan in both the San Joaquin River and Tulare Lake Hydrologic 
Regions introduced by our colleague and member of this 
Subcommittee, Congressman Jim Costa of Fresno.
    And finally, H.R. 2535, the Tule River Tribe Water 
Development Act, introduced by our colleague, Congressman Devin 
Nunes of Tulare County.
    First, let me begin by welcoming our members and especially 
friend and Ranking Member of this Subcommittee, Congresswoman 
Cathy McMorris Rodgers. I welcome our guests to the 
Subcommittee today. Congressman David Dreier, who has been 
exceedingly helpful to us in getting some water bills 
introduced and passed, is here to introduce our witness to H.R. 
123 from the witness table. Welcome, sir.
    Then we have--he is not here yet--Congressman Devin Nunes, 
who will be on the dais, and thank you all for being here. I 
ask unanimous consent that Congressman Nunes be allowed to sit 
on the dais with the Subcommittee this morning to participate 
in the Subcommittee proceedings, and he will abide by the same 
rules that we all have.
    I will begin the hearing with a brief statement and 
recognize members of the Subcommittee for any statement they 
may have. Any member who desires to be heard will be heard, and 
of course any additional material may be submitted for the 
record by members, by witnesses or by any interested party. The 
record will be kept open for 10 business days following today's 
hearing.
    The five-minute rule with our timer will be enforced, and I 
don't have to tell you that green means go, the yellow means 
you have a minute to wrap it up, and the red means stop, or I 
will stop you.
    In today's hearing, we will be considering the three water 
bills I have mentioned, and in my statement, I will focus 
specifically on H.R. 123, the San Gabriel Basin Restoration 
Fund, of which I have always been and will remain a strong 
supporter.
    The San Gabriel Restoration Fund was originally authorized 
in 2000, and since that time, Congress has appropriated over 
$68 million to aid state and local officials in cleaning up 
contaminated groundwater in the San Gabriel Basin and Central 
Basin in my area of Southern California.
    This critical legislation now seeks to authorize additional 
Federal funds for a number of reasons. They have found new 
contaminants that were not originally stated and the costs have 
been incremental, and there are several other reasons for this.
    To give you some historical perspective, the San Gabriel 
Basin has been plagued with contamination for over 30 years, 
and I have been involved with it for at least 20 of those 30 
years first as a councilwoman, then as a state assembly person 
and now as Member of Congress. And for those many years, I have 
been frustrated by the cleanup activities plagued by in-
fighting between Federal, state, and local over how to address 
the issues and who was to blame and then bringing those 
parties, including the PRPs, to the table.
    During the time the problem worsened, the plume spread into 
the Central Basin and additional contaminants began to emerge, 
and finally, the financial cost to adequately address the 
problem skyrocketed.
    Today, the basin is considered one of the most contaminated 
areas in the nation. With the authorization of this restoration 
fund, the Federal assistance provided has been a vehicle for 
Federal, state and local entities, including many of the PRPs 
for the contamination to come together to settle their 
differences. The restoration fund has helped construction of 13 
treatment facilities, treated over 84,430 acre feet of 
groundwater and removed over four tons of contaminants and has 
been a catalyst in securing over $300 million from legal 
settlements.
    In the basin, the fund has also helped implement the Water 
Quality Protection Project, which has been successful in 
preventing the contamination from spreading further south into 
the Central Basin. Further, the contamination in Central Basin 
has also been at or below the maximum contaminant level for the 
last two years.
    While great strides have been made in both basins, much 
remains to be done. That is why H.R. 123 is before us today. I 
was very alarmed when I learned earlier this year that Central 
Basin Municipal Water District, the entity responsible for the 
Water Quality Protection Project, intended to shut the project 
down after two years.
    I have also received letters from the Cities of Pico 
Rivera, Santa Fe Springs and Whittier that receive water from 
the project expressing their position that the water still 
requires further treatment, and I am accepting these letters 
for the record. I share their concern.
    Groundwater contamination and the threat it poses to our 
water supplies is a top priority for me and the communities I 
represent, and for that matter Southern California, and the 
economies in those areas. California pumps roughly 30 percent 
of its drinking water from groundwater sources. The plight of 
the cities in Central Basin makes me wonder if additional funds 
should be added to H.R. 123 so that the Water Quality 
Protection Project can continue.
    In today's hearing, we will hear from the cities in the 
Central Basin as to why water treatment should continue and 
hopefully from the Bureau of Reclamation why they will not 
support this bill. I look forward to their testimony. However, 
I also want to make clear that I am a strong supporter of H.R. 
123 in its current form and will not support any amendment that 
will hinder the movement of this bill.
    Finally, I look forward to hearing from our witnesses on 
H.R. 2498 and H.R. 2535. And now I am very pleased to yield to 
my friend from Spokane, Ranking Member Congresswoman Cathy 
McMorris Rodgers, for her statement.
    [The prepared statement of Chairwoman Napolitano follows:]

            Statement of The Honorable Grace F. Napolitano, 
              Chairwoman, Subcommittee on Water and Power

    In today's hearing we will be considering three water bills: H.R. 
123, H.R. 2498 and H.R. 2535. In my statement today, I will focus on 
H.R. 123, the San Gabriel Basin Restoration Fund, of which I am a 
strong supporter.
    The San Gabriel Basin Restoration Fund was originally authorized in 
2000, and since that time, Congress has appropriated over $68 million 
to aid state and local officials in cleaning up contaminated 
groundwater in the San Gabriel Basin and Central Basin in Southern 
California. This critical legislation now seeks to authorize additional 
federal funds.
    To give you some historical perspective on this issue, the San 
Gabriel Basin has been plagued with contamination for nearly 30 years 
now. I have been involved with this issue for 20 years--first as a City 
Councilwoman, then as a State Assembly Member, and now as a 
Congresswoman. For many of those years I was frustrated as cleanup 
activities were plagued by infighting between federal, state and local 
entities over how to address the issue and who was to blame.
    During that time the problem only worsened. The plume spread into 
Central Basin, additional contaminants began to emerge, and the 
financial costs to adequately address the problem skyrocketed. Today, 
the San Gabriel Basin is considered one of the most contaminated areas 
in the nation.
    With the authorization of the San Gabriel Basin Restoration Fund, 
the federal assistance provided has been a vehicle for federal, state 
and local entities, including many of the Potentially Responsible 
Parties for the contamination, to come together to settle their 
differences.
    In the San Gabriel Basin, the Restoration Fund has:
    <bullet>  Helped fund the construction of 13 treatment facilities
    <bullet>  Treated over 84,430 acre feet of groundwater and removed 
over 4 tons of contaminants, and
    <bullet>  Been a catalyst in securing over $300 million in legal 
settlements.
    In Central Basin, the Restoration Fund helped implement the Water 
Quality Protection Project, which has been successful in preventing the 
contamination from spreading further south in Central Basin. Further, 
contamination in Central Basin has also been at or below the Maximum 
Contaminant Level for the last two years.
    While great strides have been made in both the San Gabriel Basin 
and Central Basin, much still needs to be done. That is why H.R. 123 is 
before us today. I was alarmed when I learned earlier this year that 
the Central Basin Municipal Water District, the entity responsible for 
the Water Quality Protection Project, intended to shut the Project 
down. I also received letters from the cities of Pico Rivera, Santa Fe 
Springs and Whittier that receive water from the Project expressing 
their position that the water still requires further treatment. I will 
submit these letters into the hearing record.
    I share their concern. Groundwater contamination, and the threat it 
poses to our water supplies, is a top priority for me and the 
communities I represent. California pumps roughly 30% of its drinking 
water from groundwater sources. The plight of the cities in Central 
Basin makes me wonder if additional funds should be added to H.R. 123 
so that the Water Quality Protection Project can continue.
    In today's hearing, we will hear from the cities in Central Basin 
as to why water treatment should continue. I look forward to their 
testimony. However, I also want to make it clear that I am a strong 
supporter of H.R. 123 in its current form, and will not support any 
amendment that will hinder movement of this bill.
    Finally, I also look forward to hearing from our witnesses on H.R. 
2498 and H.R. 2535. I am pleased to now yield to my friend from 
Spokane, Washington, Ranking Member Congresswoman Cathy McMorris 
Rodgers for any statement she may have.
                                 ______
                                 

     STATEMENT OF THE HONORABLE CATHY McMORRIS RODGERS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. McMorris Rodgers. Thank you, Madam Chairman. I am not 
sure what it means, but we kind of dressed alike this morning. 
We are working together.
    Today, we hear testimony on three bills aimed at improving 
water supplies in California. All of our Western states have 
water problems, but California's water issues are clearly some 
of the most complicated. As we all know, California has major 
challenges about how to resolve long-term water supply 
problems. Recently, the Governor has proposed some bold 
initiatives, including water storage, to meet the state's 
growing thirst.
    While California ponders how it should meet its needs, the 
Federal government can offer limited and targeted assistance 
where there is a clear Federal nexus. The three bills before us 
have such a nexus or a precedent for Federal involvement.
    Although I have some questions, I look forward to working 
to resolve these matters and with the bill sponsors move these 
bills through the legislative process. I look forward to 
hearing from my colleagues and from the witnesses who have 
traveled across the country to be with us today. Thank you.
    Mrs. Napolitano. Thank you, ma'am.
    We will proceed to hear from the witnesses, and we have two 
panels. Certainly we have a few opening statements I believe. 
Mr. Costa.
    Mr. Costa. Thank you, Madam Chairman. I will withhold my 
opening statement to hear the witnesses and open on the 
measure, H.R. 2498.
    Ms. Napolitano. Thank you, sir.
    Mr. Nunes, would you have an opening statement?

  STATEMENT OF THE HONORABLE DEVIN NUNES, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Nunes. Madam Chairman, I will submit one for the 
record, but I want to thank you for the opportunity to be 
before your committee.
    [The prepared statement of Mr. Nunes follows:]

 Statement of The Honorable Devin Nunes, a Representative in Congress 
               from the State of California, on H.R. 2535

    Chairwoman Napolitano and Ranking Member McMorris Rodgers;
    Madame Chairwoman, thank you for providing me an opportunity to 
join the panel for the day to participate in a hearing on legislation I 
introduced which would meet the dire water needs of the Tule River 
Tribe.
    The situation on the reservation could not be grimmer. Currently, 
the Tribe has six wells and a spring from which to pull water 
throughout the year. During low-water months, the Tribe must truck 
water miles from the South Fork Tule River. This has led the Tribe to 
review its future water needs. They inevitably concluded that they 
could not meet their water needs without the construction of a 
reservoir.
    Therefore, the Tribe, together with interested parties, has been 
able to reach an agreement-in-principle on the magnitude of the Tribe's 
reserved water rights. Indeed, this legislation has resulted in a 
unique situation in which the community worked together outside of the 
courts to find a solution to its water needs. This is a significant 
feat considering the highly caustic nature of water policy in 
California. Upon Congressional approval, the Settlement will finally 
establish the federally reserved water rights of the Tule River Tribe.
    It is important to move this process forward and authorize the 
study of a reservoir to store the negotiated water. Again, thank you 
for holding this hearing and I look forward to working with the members 
of this committee to address any outstanding issues.
                                 ______
                                 
    Mrs. Napolitano. You are welcome, sir.
    We will proceed then with the panels. The first panel will 
be on H.R. 123 and the second on H.R. 2498 and H.R. 2535. You 
will be introduced just before testimony, and once we conclude 
the testimony, we will go with the question and answer prior to 
proceeding to the next panel.
    All your prepared statements will be entered into the 
record, and all witnesses will be asked to summarize the high 
points of your testimony and limit your remarks, please, to 
five minutes. This goes for all the questioning for my 
colleagues, and if there are any additional questions that we 
don't get through in the five minutes, then we probably will go 
to a second round.
    First, we will begin with H.R. 123, a bill to authorize 
additional funds for the San Gabriel Basin Restoration Fund. 
First, we have Robert Quint, Acting Deputy Commissioner for 
Operations for the Bureau of Reclamation; Mr. Michael 
Whitehead, President of San Gabriel Valley Water Company and 
Board Member of the San Gabriel Basin Water Quality Authority. 
This is actually the second time you are appearing with us on 
the issue of groundwater contamination. You testified at a 
hearing we held in my district in April, and we welcome you.
    Third, Mr. Don Jensen, Director of Public Works for Santa 
Fe Springs, the city in my district, and last Mr. Jensen, 
accompanied by Mr. Aguilar, General Manager of the Central 
Basin Water Municipal District.
    I might remind the Bureau that we have repeatedly requested 
testimony be given to this Subcommittee in time for us to be 
able to read it and absorb it and be able to formulate 
questions, and again, they have not been submitted. May I 
request one more time, sir, that the testimony--and I know OMB 
may be kind of tied up, but let us see if we can't get it in on 
time; if not, I want to put it in writing.
    Mr. Quint. I will deliver that message.
    Mrs. Napolitano. Thank you, sir.
    OK. I would like to first of all recognize my colleague, 
Mr. David Dreier, for a statement that he may have.

 STATEMENT OF THE HONORABLE DAVID DREIER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Dreier. Thank you very much, Madam Chair. Let me say 
that I came here to the Congress with Ronald Reagan, and by 
virtue of that, I am an eternal optimist. I was somewhat 
saddened when last November I lost my gavel as Chairman of the 
Rules Committee and we lost our majority, but I am always 
striving to find a silver cloud within that dark shadow of our 
having lost our majority and I found it this morning. Your 
silver head of hair there is a great silver cloud for me to see 
you as Chair of the Water and Power Subcommittee.
    I will say I am here testifying on behalf of your 
legislation, not my legislation, as I said to you when you came 
in, and the reason I say that is that H.R. 123 is a 
demonstration of bipartisanship at its best. We include our 
colleagues, Gary Miller, Lucille Roybal-Allard, Linda Sanchez, 
Hilda Solis, and Adam Schiff as co-sponsors of our legislation, 
and we have done that because of the fact that we all recognize 
that for the Federal government to step up to the plate and do 
what Mrs. McMorris Rodgers correctly said is a small part of 
this with a very important Federal nexus is the right thing to 
do.
    We are talking about $50 million, and about 13.5 percent of 
the share will be provided by the Federal government to deal 
with what clearly has been an issue that has a nexus, again, as 
Mrs. McMorris Rodgers said, to the Federal government.
    Why? Because as you referred to the perchlorate hearing 
that you had in the past, and we have been working together on 
this for a long period of time, it goes back to the 1950s when 
legally, in an attempt to win the Cold War, the Federal 
government had all kinds of defense contractors legally 
disposing of spent rocket fuel. And what happened? We saw that 
take place, and again, it was done legally, and it has created 
very serious problems.
    Now the cost of dealing with it, and I know this is a 
challenge with which we are all trying to contend, it had 
initially been projected to be about $320 million, and now it 
is up to a billion dollars. But you very correctly, Madam 
Chair, have said that we are talking about the lives of 
literally millions of Southern Californians, and we are also 
talking about the economy and all of the ramifications of that 
as we deal with it. So I am hoping very much that we will again 
see strong support of this.
    And I appreciate the fact that Mr. Costa, who I know is 
very intimately involved in dealing with water issues coming 
from the Central Valley of California, and my colleague, Mr. 
Nunes, who has been in and out of the room as we have proceeded 
with our work, I know you are dealing with their legislation, 
and I am looking at Mr. Quint's bottle of Deer Park. I wasn't 
offered one here. But everyone else has water here except for 
me, and I am not offended by that, but I do know how--thank you 
very much--I do know how important it is, Madam Chair.
    And there is no one who has been harder working at the 
forefront of dealing with water issues than Mike Whitehead. He 
is not just involved in California here representing the San 
Gabriel Basin Water Quality Authority, he has also been very 
involved as a leader in water issues as it relates to Arizona 
as well, and we are fortunate to have him. And I again 
congratulate all of you for the commitment to dealing with what 
is a very important multigovernment partnership in addressing a 
serious problem. So I am happy to welcome and introduce Mr. 
Whitehead.
    Madam Chair, I hope you will understand I will follow your 
legislation very closely as I hear about what we are doing 
here, but I hope you will excuse me as I go off to another 
meeting. And I want to thank you for beginning this meeting as 
punctually as I used to begin the Rules Committee meetings for 
the last eight years, which is unusual for this institution, so 
I appreciate that, and I am happy to recognize Mr. Whitehead.
    [The prepared statement of Mr. Dreier follows:]

 Statement of The Honorable David Dreier, a Representative in Congress 
               from the State of California, on H.R. 123

    Madam Chair, It is great to be with you today. You and I have 
joined together, in a bipartisan way, for many years to deal with the 
very serious challenge of keeping our groundwater supplies safe for 
southern Californians. I am very proud to have you as an original 
cosponsor of this bill, and the support of our friends Gary Miller, 
Lucille Roybal-Allard, Adam Schiff, Hilda Solis and Linda Sanchez. I am 
also pleased to be here today to introduce Michael Whitehead, whose 
name is synonymous with water in the San Gabriel Valley, and so ably 
serves on the Board of the San Gabriel Basin Water Quality Authority.
    But first, let me just state that this bill before you, H.R. 123, 
is an important continuation of the successful federal-state-local 
partnership that already exists in providing one of the most basic 
necessities of life--clean drinking water. The bill extends the current 
authorization of the San Gabriel Basin Restoration Fund by $50 million. 
While in the context of the entire federal budget, $50 million is not 
an overwhelming sum of money, it is still critical to evaluate the need 
to spend additional federal dollars, however great or small the number.
    I am proud to say that this partnership is an example of good 
stewardship of taxpayer money. Initially in 1999 when we first began 
the process for creating the Restoration Fund, the total cost of 
cleaning up the basin was estimated at $320 million. Congress created 
the Restoration Fund in 2000, with an initial authorization of $85 
million, or a 25% investment. To date, a little over $70 million has 
been appropriated, with approximately 83% of the cleanup provided by 
local sources and responsible parties, with about 12% federal funding. 
After recent evaluation of the total project, accounting for increased 
levels of detected contamination, increased energy costs and inflation, 
the total cost of cleanup now almost a decade later is approximately $1 
billion. With a modest increase of $50 million, bringing the total 
federal investment to $135 million, or 13.5%, the San Gabriel Water 
Quality Authority and the U.S. Bureau of Reclamation can continue 
jointly administering this clean up program. Their outstanding work is 
why this project is cost effective and such a huge success. In working 
with the WQA and the U.S. Bureau of Reclamation over the past decade on 
this regional solution, there is no doubt that this increase is 
warranted and will be utilized in the most effective way to continue to 
provide safe drinking water.
    Now it is with pleasure I introduce to you, Michael L. Whitehead. 
Mike serves as President and Chief Operating Officer of San Gabriel 
Valley Water Company, headquartered in El Monte, California. Mike is 
also a member of the Board of Directors of the San Gabriel Basin Water 
Quality Authority, having been first elected by groundwater producers 
in 2001. He has served as a member of the Main San Gabriel Basin 
Watermaster and Chino Basin Watermaster boards. Mike joined San Gabriel 
Valley Water Company in 1979 as Vice President and General Counsel and 
in 1989 was named president of the company. Since joining the company, 
he's been actively involved in the management of the company and as 
General Counsel supervised the company's general corporate legal 
matters, having devoted particular attention to matters involving water 
law, environmental protection, eminent domain, and public utility law. 
Prior to that, he represented Carnation Company in state and federal 
regulatory proceedings. Mike is also an officer and director of Fontana 
Union Water Company, a mutual water company, and Arizona Water Company, 
one of the largest investor-owned water utilities in the state of 
Arizona. In addition, he is a member of American Water Works 
Association, a director and past President of the California Water 
Association, and is a member of the California Bar Association and its 
Public Utility Law Section.
    Thank you for holding this hearing, Madam Chair, and I look forward 
to our continued work on water clean up in the San Gabriel Valley.
                                 ______
                                 
    Mrs. Napolitano. Thank you, sir, very much for you presence 
and your comments and for your statement about--Mr. Dreier, 
David, your statement about how it was, and if it hadn't been 
for you in the leadership beginning the process of the cleanup. 
You can't take it, can you?
    [Laughter.]
    Mrs. Napolitano. Thank you. You see, we have been working 
together on a bipartisan basis for a long time on this issue.
    So I will now begin with the testimony from the panel, and 
I would first like to recognize Mr. Quint, the Acting Deputy 
Commissioner of Operations, and I would like to ask, where is 
Mr. Johnson today?
    Mr. Quint. Mr. Johnson is in Portland, Oregon, for part of 
our effort to look at our organization. We have a Management 
for Excellence Stakeholders Meeting out there. It has been 
scheduled for several months, so he apologizes for not being 
here.
    Mrs. Napolitano. Tell him his apology is accepted, but I 
would like to see his nice shining face in our committee. Thank 
you.
    Mr. Quint. I will deliver that message too.
    Mrs. Napolitano. Thank you.

   STATEMENT OF ROBERT QUINT, ACTING DEPUTY COMMISSIONER FOR 
      OPERATIONS, BUREAU OF RECLAMATION, WASHINGTON, D.C.

    Mr. Quint. Madam Chairwoman, members of the Subcommittee, I 
am Bob Quint, Acting Deputy Commissioner for the Bureau of 
Reclamation. I am pleased to be here today to provide testimony 
on H.R. 123.
    Now H.R. 123 proposes to increase the cost ceiling 
authorization for the San Gabriel Restoration Fund by $50 
million. The San Gabriel Restoration Fund was established by 
P.L. 106-554 as part of an effort to clean up large portions of 
the San Gabriel Basin located in Los Angeles County, 
California, that were designated as Superfund sites due to 
contaminated groundwater.
    The fund is used to reimburse the San Gabriel Basin Water 
Quality Authority and the Central Basin Municipal Water 
District for designing, constructing and 10 years of operating 
and maintaining groundwater cleanup facilities in the basin.
    Due to budgetary concerns, the administration is unable to 
support this bill at this time. While the San Gabriel Basin 
Restoration Fund is and will be used for important projects, an 
additional $50 million in cost ceiling would further compete 
with Reclamation's other authorized projects, including the 
needs of aging water infrastructure, water supply and delivery 
projects such as rural water, Title XVI and environmental 
restoration projects.
    As you know, our budgetary situation plays a large role in 
all of Reclamation's testimony on legislation before this 
Subcommittee. To put it in perspective, Reclamation has several 
billion, with a ``b,'' dollars in current project 
authorizations that we are trying to fund. This includes $2.3 
billion in rural water projects, $328 million in Title XVI 
projects and more than $100 million of ecosystem restoration 
work in California alone.
    This concludes my statement. I would be happy to answer any 
questions.
    [The prepared statement of Mr. Quint follows:]

        Statement of Robert Quint, Acting Deputy Commissioner, 
  Bureau of Reclamation, U.S. Department of the Interior, on H.R. 123

    Madam Chairwoman and Members of the Subcommittee, I am Robert 
Quint, Acting Deputy Commissioner of the Bureau of Reclamation. I am 
pleased to be here today to give the Department's views on H.R. 123, a 
proposal to increase the ceiling on funds authorized to be appropriated 
to the San Gabriel Basin Restoration Fund. The Administration does not 
support H.R. 123.
    Groundwater contamination was first detected in the San Gabriel 
Valley in 1979. Following this discovery, the U.S. Environmental 
Protection Agency designated major portions of the region's groundwater 
as Superfund sites. Between 1990 and 1997, EPA identified Potentially 
Responsible Parties at the site who then engaged in negotiations with 
local water agencies and began initial design work on an EPA-developed 
basin-wide plan to set cleanup priorities. After reaching a detailed 
agreement with seven local water agencies in March 2002, design work 
was completed and construction work began. Construction of the four 
planned groundwater extraction and treatment facilities was largely 
completed in 2006.
    As part of this effort to clean up the groundwater contamination in 
the San Gabriel Basin and prevent the contamination from spreading into 
the adjacent Central Basin, the San Gabriel Basin Restoration Fund 
(Fund) was established in 2001 by P.L. 106-554. Originally established 
as a Defense Department account and subsequently transferred to the 
Interior Department, this interest-bearing account reimburses the San 
Gabriel Basin Water Quality Authority (WQA) and the Central Basin 
Municipal Water District (District) for designing and constructing 
facilities that help with groundwater cleanup efforts in the Basin. The 
Fund is also authorized to reimburse the WQA and District for operating 
and maintaining these facilities for up to 10 years. A 35 percent non-
Federal share is required for projects. This cost-share can be met by 
credits given to the WQA for expenditures used for water quality 
projects that have already been built in the San Gabriel Basin, in lieu 
of depositing the required 35 percent non-Federal share for these 
projects into the Fund. To date, the entire non-Federal share has been 
met by credits that have been certified by Reclamation.
    In Fiscal Year 2001, Congress appropriated $23 million for deposit 
into the Fund. The Energy and Water Appropriations Act for Fiscal Year 
2002 (P.L. 107-66), transferred administrative responsibility for the 
fund from the Secretary of the Army to the Secretary of the Interior, 
and appropriated an additional $12 million. Appropriations in Fiscal 
Years 2003-2006 brought the total deposits to the Fund to $68.75 
million. In addition, the Fund has accumulated over $ 2.5 million in 
interest.
    Reclamation has executed six grant agreements under the Restoration 
Fund authority. One grant agreement is with the Central Basin Municipal 
Water District, covering design, construction, operation, and 
maintenance of their facility, up to the $10 million ceiling 
established by the legislation for this component. The other five 
agreements are with the WQA. Four cover the design and construction of 
specific facilities, and the fifth agreement covers operation and 
maintenance of those four facilities.
    The total estimated cost of the project authorized by the 
legislation is about $204 million. Based on this cost estimate, about 
$69 million would be allocated for the completion of the construction 
of all five facilities, and about $135 million would be allocated to 
fund the operation and maintenance of all five facilities for 10 years, 
as authorized.
    The San Gabriel Basin Restoration Fund is and will continue to be 
used for important local projects. Reclamation must allocate its scarce 
budget toward funding already authorized projects within the agency's 
traditional mission of delivering water and power in an environmentally 
responsible and cost-efficient manner, with emphasis on the needs of 
aging infrastructure, the safety of existing facilities and dams, and 
ongoing environmental restoration efforts. The Administration has not 
budgeted for the San Gabriel Restoration Fund in any of the preceding 
fiscal years. The Administration believes that resources should be 
allocated to achieving priorities within Reclamation's traditional 
mission area and does not support the $50 million cost ceiling increase 
proposed in H.R. 123. Reclamation, however, will continue to work with 
the WQA and the District when possible to advance the goal of 
groundwater cleanup in the San Gabriel Basin.
    Madam Chairwoman, this concludes my testimony. Thank you for the 
opportunity to comment on H.R. 123. I would be happy to answer any 
questions at this time.
                                 ______
                                 
    Mrs. Napolitano. Thank you, sir, for your testimony, and I 
do have a lot of questions specifically dealing with why the 
Bureau does not request an increase in budgetary funds to be 
able to address the issues they have on their table. Thank you 
so much.
    Now I will move on to our second witness, Mr. Michael 
Whitehead, President, San Gabriel Valley Water Company, et 
cetera, et cetera. Welcome, sir.

 STATEMENT OF MICHAEL WHITEHEAD, PRESIDENT, SAN GABRIEL VALLEY 
WATER COMPANY, AND BOARD MEMBER OF THE SAN GABRIEL BASIN WATER 
           QUALITY AUTHORITY, WEST COVINA, CALIFORNIA

    Mr. Whitehead. Thank you very much, Madam Chairman, and 
thank you to the members of the committee.
    Mrs. Napolitano. Would you mind, sir, Chairwoman?
    Mr. Whitehead. Chairwoman.
    Mrs. Napolitano. Thank you.
    Mr. Whitehead. I am sorry. Madam Chairwoman, yes, indeed. 
Thank you for that welcome.
    It is indeed a privilege to come before your committee 
today and speak in favor of the passage of H.R. 123. As 
Congressman Dreier so eloquently put it, it has been a very 
important contribution to the well-being of the public health 
and safety of the citizens of the San Gabriel Valley.
    I might point out for the committee's information that the 
San Gabriel Basin groundwater aquifer underlies about 167 
square miles of the San Gabriel Valley. It is a very rich and 
abundant renewable and sustainable source of local water supply 
for over 1 million people in that part of Los Angeles County. 
Indeed, it could sustain even larger populations as a 
groundwater storage facility.
    That is the good news. We are blessed with that very 
abundant renewable resource, the good news. The bad news is, as 
we have heard earlier today, that that has been contaminated, 
and unfortunately, that has been the unfortunate legacy of 
unregulated discharges from defense and other related 
industries and a legacy of the Cold War era.
    With the adoption of the San Gabriel Basin Restoration 
Fund, we have been able to begin the process of cleaning that 
basin, but much more work is required, much more work needs to 
be done. The fact of the matter is, and I think other witnesses 
will bear me out on this, is that even though we have initiated 
some very important groundwater cleanup projects to date with 
the assistance of the restoration fund, much, much more work 
remains to be done.
    And quite frankly, with the impending limitations of 
imported water from Northern California through the State Water 
Project and the reallocations and the reductions of water 
supplies available from the Colorado River, we have no choice 
but to make sure we rely to the fullest extent possible on 
local renewable resources like the water in the San Gabriel 
Basin. But we need help to make sure that water can be cleaned 
up and assure to our public that relies on that water that it 
meets all safe drinking water standards. That is an absolute 
imperative.
    Quite frankly, I am concerned. I am concerned with the 
confluence of water restrictions, drought which appears to have 
no end right now and our lack of access to this local supply 
that we may be facing a clear and present public health and 
safety crisis. We cannot allow this to happen. It is like 
watching a train wreck about to happen. We need to take action.
    I would like to reiterate my extreme gratitude to you, 
Madam Chairwoman, and the members of the committee and Members 
of Congress who have been unwavering in their support for 
assisting us, helping us to help ourselves to restore this very 
important water resource. Thank you.
    [The prepared statement of Mr. Whitehead follows:]

          Statement of Michael L. Whitehead, Director of the 
         San Gabriel Basin Water Quality Authority, on H.R. 123

    Good afternoon Madam Chairwoman, Committee members, and staff. My 
name is Michael Whitehead, and I am a member of the Board of Directors 
of the San Gabriel Basin Water Quality Authority. Let me first express 
my appreciation to you Madam Chairwoman, as well as Representatives 
David Dreier, Hilda Solis, Adam Schiff, Gary Miller, Lucille Roybal-
Allard, and Linda Sanchez for your unwavering support and assistance in 
helping to restore the San Gabriel Groundwater Basin.
    The San Gabriel Basin Water Quality Authority was created and 
authorized by the California State Legislature in 1993 to address the 
critical need for coordinated groundwater cleanup programs in the San 
Gabriel Basin after harmful amounts of contaminants were detected in 
the region's groundwater. The Water Quality Authority is committed to 
protecting public health and safety by prioritizing, facilitating, and 
coordinating groundwater cleanup and supply programs with local water 
suppliers and the U.S. EPA, while minimizing local financial and 
economic impacts, including impacts on consumers who rely on local 
groundwater supplies from the San Gabriel Groundwater Basin.
    The San Gabriel Basin underlies 167 square miles of the San Gabriel 
Valley. The San Gabriel Basin holds hundreds of thousands of acre-feet 
of local, renewable, public drinking water supplies. In fact, the San 
Gabriel Basin is capable of providing a reliable, local drinking water 
supply for the more than one million people who reside and work in the 
San Gabriel Valley--as long as we are able to implement effective 
groundwater cleanup to remove the contaminants.
    In December of 2000, thanks to the leadership of Representative 
Dreier and the other members of the San Gabriel Valley Congressional 
Delegation, Congress enacted the San Gabriel Basin Water Quality 
Initiative in Congress. Representative Dreier and his colleagues moved 
to establish the Restoration Fund as a means of expediting the 
remediation of groundwater contamination caused by industrial solvents 
and rocket fuel contaminants such as perchlorate. The Restoration Fund, 
which is administered cooperatively by the Water Quality Authority and 
the Bureau of Reclamation, uses Federal and non-Federal monies 
contributed to the San Gabriel Restoration Fund to design, construct, 
and operate facilities to contain and treat the spreading groundwater 
contamination in the San Gabriel and Central Groundwater Basins.
    The Water Quality Authority has benefited tremendously from the 
Restoration Fund by enabling us to continue the collaborative approach 
of merging cleanup with water supply and allowing us to leverage 
Federal dollars and local funding to bring all parties to the table and 
work in a manner that addresses multiple issues at the same time. The 
Restoration Fund has provided an incentive for the Responsible Parties 
in the San Gabriel Basin to participate in the cleanup and to reach 
funding agreements with affected water suppliers. It has also allowed 
the Water Quality Authority and the affected water suppliers to fund 
projects even before Responsible Parties could be identified or when 
Responsible Parties are no longer viable, cannot be located, or are 
recalcitrant. Without this Federal funding the likelihood for 
additional well closures would be great, leaving only the option of 
turning to costly and already overburdened imported water supplies.
    Since the Restoration Fund was made available to the Water Quality 
Authority, we have received $71.5 million through the Bureau of 
Reclamation's construction account. The Water Quality Authority has 
allocated the use of these funds to 32 projects throughout the Basin, 
21 of which have been completed, with another 8 currently under 
construction. To date these efforts have helped to remove over 20 tons 
of contaminants, and treated nearly 313,000 acre-feet of groundwater.
    For example, with the completion of four major groundwater cleanup 
projects developed and implemented through the Water Quality Authority 
with the cooperation of local water suppliers, participating 
Responsible Parties, and the U.S. EPA, we remove perchlorate and other 
toxic chemicals from groundwater at the rate of 24,000 gallons per 
minute on a 24/7 year-round basis. These projects will continue to 
provide safe drinking water to residents and businesses in Baldwin 
Park, La Puente, West Covina, the City of Industry, and surrounding 
areas for decades to come without burdening the public with higher 
water bills. Even so, a great deal more effort and cleanup is still 
required.
    Earlier this year, in recognition of the tremendous success of the 
Restoration Fund and the need to continue the local cleanup efforts, 
Congressman David Dreier and his colleagues in the San Gabriel Valley 
Congressional Delegation introduced H.R. 123. This legislation would 
increase the authorization ceiling on the Restoration Fund by $50 
million from its current level of $85 million. This additional funding 
would allow us to continue the progress we've made and avoid costly 
litigation that only serves to slow down the cleanup.
    Without future Federal assistance for the treatment facilities, 
local water suppliers would be forced to shut down water wells due to 
migrating contamination. The closures would force purveyors to become 
reliant on imported water, which would come mainly from the Colorado 
River and the State Water Project. And as you may know, California's 
water allotment from the Colorado River is being cut back, and 
deliveries from the State Water Project are seriously restricted. This 
would severely impair our ability to provide water for the residents 
and businesses in the San Gabriel Basin. With your help we have the 
opportunity today to make certain these closures don't occur, while 
ensuring our water suppliers have a safe, abundant, and sustainable 
water supply to draw from in the years to come.
    Water from wells in the San Gabriel Valley is relatively 
inexpensive to pump and supply to homes and businesses in comparison to 
imported supplies from the Colorado River or northern California. The 
current price for an acre-foot of treated, ready-to-drink Colorado 
River water in the high-demand summer period is $549, subject, of 
course, to its availability. The typical cost to pump and treat an 
acre-foot of local San Gabriel Basin groundwater is $65 to $250 
depending on the levels and types of contamination being treated.
    It is vital that we continue our efforts to restore the San Gabriel 
Basin aquifer. Once we are able to remediate the contamination, it is 
our belief that the local groundwater basin will be able to meet all of 
the San Gabriel Valley's water needs. Removing harmful contaminants 
from our communities' groundwater supply will allow local water 
suppliers to better meet the needs of local residents at affordable 
rates and make certain that the Basin is able to meet the water supply 
needs of future generations. The Federal assistance provided by the 
Restoration Fund allows us to carry out our mission of facilitating 
groundwater cleanup and providing a clean, reliable, drinking water 
supply for the over one million residents of the San Gabriel Basin.
    Thank you for allowing me to testify on the successes and on-going 
progress of the cleanup of the San Gabriel Basin today and the 
importance of H.R. 123 to our future. I would be happy to answer any 
questions to that you may have.
                                 ______
                                 
    Mrs. Napolitano. Thank you, Mr. Whitehead, and that was 
very well done, sir, within time.
    I do like to again stress the importance of what this 
project means to the whole Southern California area and the 
facts, as you have well stated, of our decrease of take from 
the Colorado, the pending judge's decision on the Bay Delta, 
together with the drought, you are right, we have no choice. 
Thank you, sir.
    I will move on to our next witness, Mr. Donald Jensen, 
Director of Public Works from Santa Fe Springs. Your first 
time, sir. Welcome.

STATEMENT OF DONALD JENSEN, DIRECTOR OF PUBLIC WORKS, SANTA FE 
   SPRINGS, CALIFORNIA; ACCOMPANIED BY ART AGUILAR, GENERAL 
 MANAGER OF THE CENTRAL BASIN MUNICIPAL WATER DISTRICT, AND AL 
        CABLAY, DEPUTY DIRECTOR, PICO RIVERA, CALIFORNIA

    Mr. Jensen. Good morning, Chairwoman Napolitano. It is good 
to see you again, Ranking Member McMorris Rodgers and other 
members of the Subcommittee. I very much appreciate the 
opportunity to appear today before you on behalf of the 
residents of Santa Fe Springs, Pico Rivera and Whittier and 
also the 2 million residents that live within the Central Basin 
Municipal Water District service area. We very much appreciate 
the committee being a strong advocate for clean and safe water 
for the residents of the San Gabriel Valley.
    I would like to recognize Mr. Art Aguilar, who is the 
General Manager of the Central Basin Municipal Water District, 
and Mr. Al Cablay, who is the Deputy Director of Pico Rivera, 
who have joined me today.
    For nearly 30 years, the Federal government and local 
agencies have worked together to address a plume of 
contaminated water moving out of the upper San Gabriel region. 
The goal of Central Basin and its cities continues to be to 
clean up and contain the compounds that are part of this 
contamination.
    We very much appreciate the efforts of your Subcommittee in 
helping us achieve the first step, which was to get $10 million 
in appropriations back out of the 106th Congress. Six point 
five million of that money went toward the construction of the 
WQPP, with the balance going toward operation expenses. But our 
mission is not over, and we respectfully request that you 
consider including additional funding in the amount of $11.2 
million so that we may keep the WQPP operating. We believe the 
additional funds would fulfill the recommendations made in the 
EPA 2001 design report.
    As you know, contamination in this area was first found in 
1979. EPA followed up with a lot of field work, and in 2001, a 
remedial facility was built in the Whittier Narrows area. The 
purpose of the facility was to clean up contamination from the 
Whittier Narrows area and to prevent contaminated groundwater 
from moving into the Central Basin area.
    However, even before the construction of the Whittier 
Narrows plant began, groundwater data showed that PCEs and TCEs 
exceeded the maximum contaminant level in wells south of the 
Whittier Narrows Dam. Additionally, the contaminated water had 
migrated past the site of the Whittier Narrows extraction 
wells.
    The San Gabriel and Rio Hondo spreading grounds are south 
of the Whittier Narrows. These spreading grounds are operated 
by Los Angeles County and utilize stormwater, imported water 
and recycled water to replenish the groundwater supply. It is 
for that very purpose that Central Basin and the cities 
continue to be concerned that the contamination may have a dire 
impact on the water quality for our area.
    The WQPP was constructed to monitor and intercept and treat 
contaminated water. We are pleased to say that over the past 
two years, contamination levels have been below the maximum 
contaminant level. However, as the plume still exists north of 
our area, we continue to be concerned about its proximity and 
its potential for harming the Central Basin area and the cities 
that we are in.
    In 2001, the three cities entered into an agreement with 
Central Basin regarding the purchase of treated water from the 
facility. We have made a commitment to take a quantity of water 
on an annual basis that represents almost a $900,000 commitment 
by the cities.
    In May of 2007, after almost three years of operating the 
WQPP, Central Basin announced that it was considering taking 
the WQPP out of service. They cited two reasons for stoppage 
and production. First, the levels of volatile organic compounds 
that were originally cited to be a concern had not exceeded 
maximum allowable levels, and second, operating costs were 
found to be higher than expected.
    Central Basin met with the three cities. We agreed to form 
a partnership and try to keep the facility running. Given the 
financial, the substantial financial investment in the Whittier 
Narrows project and the WQPP, if the WQPP facility is shut down 
and maximum contaminant levels are exceeded in the future in 
the area south of the Whittier Narrows Dam, it would leave our 
cities, which are essentially on the front line of this battle, 
without a defense and pose a serious threat to the water 
quality in the entire Central Basin area.
    Therefore, on behalf of the cities of Santa Fe Springs, 
Pico Rivera and Whittier, we respectfully ask that the 
Subcommittee include $11.2 million in additional funding in 
H.R. 123 for continued operation of the WQPP. The cities 
believe this funding is critical to the continued protection of 
water quality for the 2 million people in the Central Basin 
area. That concludes my statement, Madam Chair.
    [The prepared statement of Mr. Jensen follows:]

       Statement of Donald K. Jensen, Director of Public Works, 
           City of Santa Fe Springs, California, on H.R. 123

    Thank you Madam Chair for that very kind introduction.
    Chairwoman Napolitano, Ranking Member McMorris-Rodgers, and other 
members of the subcommittee, I appreciate the opportunity to appear 
today on behalf of the 165, 000 residents of Santa Fe Springs, Pico 
Rivera and Whittier and the additional 2,000,000 residents served by 
the Central Basin Municipal Water District (appendix A).
    Thank you for being such strong advocates and fighting for clean 
and safe water for the residents of the San Gabriel Valley. I would 
also like to recognize Art Aguilar, General Manager of Central Basin 
Municipal Water District and Al Cablay, Deputy Director of Public Works 
for the City of Pico Rivera.
    For nearly 30 years, the federal government and local water 
agencies have been working to address an underground plume of 
contaminated water that has been slowly moving southeast from the Upper 
San Gabriel Valley region, which is a Superfund site (appendix B). The 
contamination resulted from the release into the soil of volatile 
organic compounds such as chemicals used for degreasing, dry cleaning 
and metal cleaning.
    The goal of Central Basin and the cities it represents, including 
Santa Fe Springs, Pico Rivera and Whittier continues to be clean up and 
containment of the compounds. We very much appreciated your efforts 
during the 106th Congress when we initially received authorization to 
fund containment efforts in the San Gabriel Basin and Central Basin. 
That legislation initially provided $10 million to fund the Central 
Basin Water Quality Protection Project (WQPP), I have attached for your 
review a brief summary of how that money was spent over the past six 
years (appendix C) but approximately $6.5 million went toward 
construction with the remainder of the money going toward operations. 
That funding was critical to protecting over 2 million people from the 
potential contamination migrating south from the upper San Gabriel 
Valley region. But our mission is not over and we respectfully request 
you consider including us for additional funding of $11.2 million as 
this subcommittee considers H.R. 123. Our proposed use of these 
additional funds is detailed in appendix D and would fulfill the 
recommendation made by the EPA in their 2001 design report.
    According to the United States Environmental Protection Agency 
(USEPA), the initial discovery of contamination occurred in 1979. EPA 
began investigating groundwater in the Whittier Narrows area of the San 
Gabriel Superfund sites in the late 1980s. A remedial investigation was 
completed in 1992, and from 1997 to 1998, increasing levels of volatile 
organic compounds led to additional fieldwork by EPA.
    Design of a remedial facility in the Whittier Narrows area was 
completed by USEPA in 2001 and construction of extraction wells, 
conveyance pipelines, and a treatment plant began in 2001 and was 
completed in May 2002. The purpose of the treatment facility was to 
clean up contamination in the Whittier Narrows and to prevent 
contaminated groundwater from moving into the Central Basin.
    However, even before construction of the Whittier Narrows plant 
began, groundwater monitoring data showed that the level of PCEs 
(tetrachloroethylene) exceeded the maximum contaminant levels in wells 
south of the Whittier Narrows Dam. Also, the underground plume of 
contaminated water had already migrated past the site of the Whittier 
Narrows extraction wells. Moreover, the Whittier Narrows treatment 
plant did not become fully operational until December 2005.
    The San Gabriel and Rio Hondo Coastal Spreading Grounds are located 
south of the Whittier Narrows Dam and are adjacent to the cities of 
Pico Rivera, Whittier, and Santa Fe Springs. These spreading grounds, 
operated by Los Angeles County, utilize storm water, imported water and 
recycled water to replenish the groundwater supply in the Central 
Basin. Thus, we have been concerned for many years that the source of 
drinking water for these cities as well as the entire Central Basin 
service area could be contaminated by the underground plume of 
contaminated water migrating south from the Whittier Narrows area.
    In response to concerns over the contamination, the Southeast Water 
Coalition (SEWC), a joint powers authority was formed, in part, by 
local cities and the Water Replenishment District (WRD) to advocate for 
the protection of the regional water supply. The Cities of Pico Rivera, 
Whittier and Santa Fe Springs are still members of SEWC. SEWC was then, 
and is now, very concerned about the migration of the underground plume 
into the Central Basin and the Montebello Forebay service areas.
    SEWC approached Central Basin Municipal Water District (CBMWD) in 
2001 and requested the District's assistance regarding the issue. 
Subsequently, the $10 million appropriation we received through the 
Bureau of Reclamation for the WQPP meant that local cities and 
consumers were not penalized for the contamination by being required to 
pay for the WQPP.
    The WQPP was constructed to monitor and intercept water entering 
the Central Basin from Upper San Gabriel Valley region. Central Basin 
designed and constructed two extraction wells, a treatment facility, 
and distribution lines, all located in the City of Pico Rivera. We work 
closely with our contract operator and test lab firm to conduct monthly 
testing and we are pleased that over the past two years contamination 
we are seeing is below the maximum contaminant level. However, the 
plume is north of the WQPP which puts us in a position to safeguard the 
water quality if for any reason the Whittier Narrows remediation 
facility becomes inoperable for any reason. I have attached for your 
reference data with containment reads from 2004 to March of this year 
(appendix E). Notwithstanding what we have seen over the last two 
years, the unpredictability and location of the contaminant plume 
continues to be a matter of great concern to the Cities of Santa Fe 
Springs, Pico Rivera and Whittier. As our three cities are located at 
the northern edge of the Central Basin service area, we are literally 
on the front line in this battle.
    In 2001 the three cities entered into agreements with Central Basin 
regarding purchase of the treated water from the WQPP project. Under 
the agreement, the Cities agreed to convey a certain amount of their 
water rights to the Central Basin, which pumps the conveyed rights from 
the extraction wells and treats the pumped water. Collectively, the 
three cities have made a commitment to take up to 4600 acre feet of 
water annually from the WQPP. This represents a financial commitment of 
approximately $870,000 by the cities.
    In October 2004, Central Basin received its domestic drinking water 
permit and the facility went into operation in and began to distribute 
in December 2004 the treated water to the cities of Pico Rivera, Santa 
Fe Springs and Whittier.
    In May 2007, after nearly three years of operating the WQPP, 
Central Basin announced that it was considering taking the WQPP out of 
service. Central Basin cited two reasons for the stoppage in 
production: the levels of volatile organic compounds that were 
originally cited to be a concern had not exceeded allowable levels for 
the last two years; and, operating costs were much higher than 
expected. Central Basin met with the three impacted cities and it was 
evident they were concerned about the potential threat to groundwater 
in the Central Basin. In order to keep the facility in service, the 
cities and Central Basin agreed to work together regarding formation of 
a joint powers authority (JPA).
    Groundwater monitoring data from the WQPP shows that allowable 
levels of volatile organic compounds have not been exceeded during the 
last two years; however, the cities and Central Basin believe the 
prudent course would be to continue operating the WQPP due to the 
potential harm to Central Basin and the Montebello Forebay from the 
underground plume of contaminated water. The original 2001 design 
report for the WQPP recommended continuous pumping would be required 
for up to 7 years assuming that EPA begins operation of the containment 
extraction wells in the Whittier Narrows within 2 years. However, the 
Whittier Narrows treatment facility did not become fully operational in 
2003 as anticipated; as stated previously, that occurred in December 
2005, after the WQPP became operational. As a result of this delay, the 
continuous pumping recommendation made by the EPA would carry our 
operation into 2014, which is why we are requesting additional funding 
by amending H.R. 123 to include us.
    Again, given the substantial federal investment in both Whittier 
Narrows and WQPP, if the WQPP facility is shut down, and maximum 
contamination levels are exceeded in the future in the area south of 
Whittier Narrows Dam, it would leave the cities with no recourse and 
would threaten water quality in the Central Basin.
    Therefore, on behalf of the cities of Santa Fe Springs, Pico Rivera 
and Whittier, we strongly urge the subcommittee to include $11.2 in 
additional funding in H.R. 123 for continued operation of the WQPP. The 
cities and Central Basin believe this funding is critical to the 
continued protection of water quality for the more than 2 million 
people living in and around the impacted cities.

[GRAPHIC] [TIFF OMITTED] T8016.005

[GRAPHIC] [TIFF OMITTED] T8016.006

[GRAPHIC] [TIFF OMITTED] T8016.007

[GRAPHIC] [TIFF OMITTED] T8016.008

[GRAPHIC] [TIFF OMITTED] T8016.009

[GRAPHIC] [TIFF OMITTED] T8016.010

                                 
    Mrs. Napolitano. Thank you, Mr. Jensen.
    Mr. Aguilar, do you have any statements for the record?
    Mr. Aguilar. No. I am available to answer questions of the 
committee and to support Mr. Jensen, and we do believe that the 
WQPP is strongly needed, still needed within the community, and 
are glad to be working with the cities on continuation of this 
project.
    Mrs. Napolitano. Thank you. And for those that might not 
know, there is a rendering on our right, your left, in regard 
to the wells and where the spreading grounds are and how it has 
already managed to penetrate the spreading grounds.
    Some 15 years ago, I got involved in this issue, and we 
knew that it was coming, and for whatever reason, as I 
explained before, it didn't get addressed in time to keep it 
from going past the spreading grounds and has been a problem 
for our communities.
    What you really haven't addressed is that the spreading 
grounds then flow to many cities below that will affect their 
drinking water supply if that were to continue to effectively 
pollute the aquifers that feed the wells that the cities use 
south of my area. So it is really a key issue for not only our 
area but those below us in the many cities and the millions of 
people that live below us too.
    So with that, let me move forward to questions. Cathy?
    Mrs. McMorris Rodgers. Thank you, Madam Chairman. Question 
for Mr. Whitehead. I understand that the bill is increasing the 
Federal authorization for another $50 million. The question is, 
how much does this represent in comparison to what the state 
and local entities and other companies are paying into the 
cleanup?
    Mr. Whitehead. That is a very good and timely question. The 
first part of your question is what portion of the total cost 
is being borne by the State of California. Unfortunately, we 
have been far less successful in obtaining financial commitment 
from the State of California. I can assure you it is not for 
lack of effort. A great deal of effort has been extended. We 
think that progress is right now being made in the California 
Legislature's Special Session on Water Issues. I have reason to 
believe that a great deal of attention is being focused on 
groundwater contamination not only in the San Gabriel Valley 
but elsewhere in the state, including the inland and Fontana/
Rialto area.
    I am cautiously optimistic that the state will take up more 
of the responsibility for this, and I can assure you that we 
are devoting an extraordinary amount of time and resources to 
help make that happen.
    The other part of your question, I am very pleased to 
report that we have been uniquely successful in drawing funds 
from the responsible parties, and I might add that we have 
achieved that success with a minimum amount of costly, time-
consuming litigation. Part of that success I think is in large 
measure the product of the Water Quality Authority's ability to 
marshal numerous resources and numerous constituencies.
    Certainly the restoration fund is an enormous incentive for 
the polluters to step forward and put their money up. After 
all, as Mr. Dreier pointed out, the Federal portion has to be 
matched by nonFederal sources in order to qualify for the 
restoration funding, and we have achieved literally hundreds of 
millions of dollars in commitments and actual payments from the 
responsible parties to back up the funding from the restoration 
fund and to provide the nonFederal source.
    Also, the authority itself has been able to raise funds and 
to apply that to the planning and development, construction and 
even operation of water treatment facilities, taking early 
action when polluters couldn't be found to assure that large 
quantities of contaminants are removed from the groundwater to 
either prevent or minimize the migration of those contaminants, 
as we have heard, across the Whittier Narrows.
    Mrs. McMorris Rodgers. What is your current estimation as 
to when the cleanup will be completed for purposes of Federal 
funding?
    Mr. Whitehead. The unfortunate aspect of the San Gabriel 
Valley, as I mentioned in my remarks, is that it covers 167 
square miles. It is a big place. If you add onto that portions 
of the Central Basin, it goes up exponentially.
    The EPA declared the area a Superfund cleanup site and 
divided it into five or six, maybe seven, subareas called 
operable units. That is a lot of jargon to mean that the EPA 
attacks the contamination in the various parts because it 
doesn't all come from the same source. It comes from multiple 
sources in that area. So it is very important that we continue 
to plan.
    I might add that the water authority's role in large part 
has been planning and developing remedial solutions. I wish I 
could give you a definite and certain answer. My guess is it 
won't be sooner than 10 years.
    Mrs. McMorris Rodgers. OK. Very good. Thank you.
    Mrs. Napolitano. Mr. Costa.
    Mr. Costa. Thank you, Madam Chairwoman.
    I am familiar with the challenge that the San Gabriel 
faces, and you have for many years been a tremendous advocate 
and spoken with great passion as to the desire to address the 
challenges of this groundwater resource, and I certainly am 
supportive of your efforts and frankly feel that this 
groundwater basin, like others in California and other parts of 
the country, need to be addressed and certainly want to provide 
full support in your efforts.
    So my questions have really been answered as we have done 
our due diligence on this in years past, and I just want to 
commend you again for doing your very best to focus in an area 
that truly needs to be responded to. And anything we can do to 
be of help, we are one state and we need to address these 
issues. So I thank you for your good work.
    Mrs. Napolitano. Thank you, sir.
    Mr. Costa. I have no questions.
    Mrs. Napolitano. Thank you for your comments. Appreciate 
it.
    Mr. Baca.
    Mr. Baca. Thank you, Madam Chair.
    The question is for Mr. Whitehead. Given the success of the 
San Gabriel Basin Water Quality Authority, you know about the 
perchlorate problems in Fontana and in my district, how will 
H.R. 123 help the surrounding areas?
    Mr. Whitehead. I think that even though H.R. 123 as written 
is intended to increase the authorization for the San Gabriel 
Valley Restoration Fund, I continue to believe, Mr. Baca, that 
it serves as a very compelling model. Both the funding 
arrangements and the Water Quality Authority structure itself 
represent a very compelling model for addressing regional 
groundwater contamination problems and the need for regional 
remedial solutions to be done in a unified and focused fashion 
as opposed to numerous entities, water companies, water 
districts, cities, what have you, essentially trying to do it 
all on their own.
    The success that we have achieved, to the extent that we 
have had success in the San Gabriel Valley, has been the result 
of a unified effort. I would strongly urge and I would strongly 
participate in an effort to do likewise in your district and 
the surrounding area that has been confronted with this awful 
problem of perchlorate and other contamination in your water 
supplies.
    Mr. Baca. Currently we have about 31 to 32 or maybe 33 
contaminated wells in the surrounding areas, specifically in 
the Rialto area, and so it does present a problem, and you said 
at the very beginning we will have a health and safety crisis 
if we don't deal with remediation of water and the 
contamination that we have in that area, especially as we look 
at the shortage of the rainfall that we have had, and thank God 
we had some rainfall this week. As we look over the decades, 
cleanup activities in San Gabriel Basin were repeated and 
hindered by the discovery of new contaminants. How confident 
are you that we have a clear handle on the problem so that we 
can start making greater progress in the cleanup?
    Mr. Whitehead. Well, I wish I could give you as optimistic 
an assessment, Congressman, about the Fontana/Rialto issues as 
I am today in the San Gabriel Valley. The problem, as I said, 
is a fractured effort. I would again repeat my willingness to 
work with you or anyone else who would like to foster a unified 
effort there.
    With respect to your specific question about additional 
contaminants, unfortunately, we have had to deal with new and 
emerging contaminants. Technology being what it is, we are able 
to identify these contaminants in our public drinking water 
supplies that in the past were invisible to us, and this 
includes contaminants like perchlorate, dioxane, volatile 
organic compounds and a veritable litany of contaminants that 
are endangering our public water supplies.
    I might add that the EPA in declaring the San Gabriel 
Valley a Superfund cleanup site, far from the stigma that most 
people might attach to that designation, provided extraordinary 
resources and brought an extraordinary effort to enforce the 
development of a regional remedy for the San Gabriel Valley, 
which we have been able to implement in conjunction with the 
EPA through the Water Quality Authority.
    My concern is that we haven't seen a vigorous effort by the 
EPA in the Fontana/Rialto area, and I dare say the area has 
suffered as a result. Again, I think we have a model. I think 
we have a model of success in the San Gabriel Valley with the 
restoration fund and the Water Quality Authority.
    Mr. Baca. Thank you. Mr. Aguilar, with the cities forming a 
JPA, what would the Central Basin Municipal Water District's 
role be with regard to any additional funds?
    Mr. Aguilar. The Central Basin looks forward to working 
with the cities as part of a JPA. We would continue to 
administer the project and do the day-to-day work on the 
project as well as monitor the funding, but unlike the past 
where it was all contained within the district, it would now be 
monitored in conjunction with the three cities.
    We would develop a structure that would provide for 
interaction for meetings and monitoring so that we can make 
sure that the project is serving the needs of all the parties 
involved. We are fully supportive of a JPA and feel that this 
goes with our new mission at Central Basin, which is to work 
with the communities within our particular district.
    In the past, many water districts have looked at it from 
above and made decisions based solely on what their knowledge 
would be and their efforts would be. The time has come, as Mr. 
Whitehead has said, to focus regionally, to focus locally, to 
take care of our problems. We believe in now working across 
with our partners and making sure that their needs are served 
first by us, and that is a big part of our mission.
    Mr. Baca. Madam Chair, I know my time has expired, but if I 
may ask one final question, and this pertains to Mr. Jensen and 
Mr. Aguilar.
    Since you are asking for additional funds in the bill for 
H.R. 123, what kind of timelines are on in forming this JPA?
    Mr. Jensen. We believe that the JPA could be formed within 
a matter of six months, and we are already actually three 
months into that six-month period under a MOU. So we believe 
that by the end of the year we could reasonably have a 
structure for the JPA ready to be adopted by all of the 
parties.
    Mr. Aguilar. I concur with that. One of the first things we 
did upon this discussion was to formulate that Memorandum of 
Understanding so that we would delineate what the goals would 
be, and this would form the framework for a JPA. We are now at 
the point where we are extending that three-month MOU for an 
additional three months, and we believe that we can formulate 
it during that time period.
    Mr. Baca. Would that also help in the area of the 
perchlorate if a JPA or Memorandum of Understanding was done in 
that area, Mr. Whitehead?
    Mr. Whitehead. I think it would. I think it would. Even 
though we have heard today that the concentrations in that area 
have tailed off, we remain very concerned about the migration 
of contaminants, including perchlorate and other contaminants, 
through Whittier Narrows and into the Central Basin, and I 
think that Mr. Aguilar and Mr. Jensen are doing the right thing 
in working cooperatively as a collaboration to deal with this 
in a unified way.
    Mr. Baca. OK. Thank you, Madam Chair, for allowing me the 
extended time.
    Mrs. Napolitano. You are very welcome.
    Mr. Nunes, do you have any questions?
    Mr. Nunes. Not at this time.
    Mrs. Napolitano. Thank you. My turn.
    There are many things that I want to bring out, and as you 
have heard, there are questions that have not quite been 
addressed, especially with the Bureau of Reclamation not 
requesting enough funds to be able to continue moving forward 
on the projects that are so essential, and I will continue to 
harp on that and I will continue to make efforts to increase 
the budget.
    We tried and were unsuccessful this year, but let me tell 
you next year is another year, and that goes not only for our 
area but for the whole of the United States, especially the 
West where we are facing drought. We need the help. We don't 
need hindrances. I think we need to revisit the mission of the 
Bureau of Reclamation as stated, because water is water. 
Whether it is water quality, water production, water safety, 
all of it is tied into your mission we hope.
    With that said, I just have a number of questions that have 
been formulating in my mind in regard to this particular bill. 
Mr. Aguilar, when the Central Basin announced their intent to 
shut down the project and dismantle the facilities, why was I 
not notified or somebody else?
    Mr. Aguilar. We were in the process of studying the 
closure, and we were putting together what we were 
contractually required to with the USBOR. We were down to the 
final amounts of money, and so when we got to that point, we 
had to do that. We notified the cities that this was going to 
take place on a staff level, and the communication line at that 
particular time broke down in terms of bringing it upward. We 
should have followed up and notified you as well.
    Mrs. Napolitano. Well, I can understand that things do 
happen, but in order for us to be effective, we need to be 
availed of the information so that we can move forward and not 
react at the last minute to whatever is necessary. And I 
understand you were shut down? You actually did shut down?
    Mr. Aguilar. We had a planned shutdown that was going to be 
coming up to replace the carbon vessels as it was. They were at 
the point where they needed to be checked and possibly 
replaced. So the timing was at that time the right time to 
consider and to shut down while we studied the question.
    Mrs. Napolitano. The original recommendations or actually 
the 2001 design indicated that WQPP would operate until 2014, 
and I know that EPA is not as involved in monitoring and all 
because I have called them and spoken to them, but I would like 
to have a better understanding of your relationship with EPA 
and the monitoring of the contaminants, especially the 
perchlorate and the new contaminants. What is your 
relationship?
    Mr. Aguilar. The relationship with the EPA has been 
primarily on a regular and systematic reporting of what they 
are finding and what contaminant levels they feel may have 
gotten through the Whittier Narrows. We likewise are sharing 
data back with them, and it has been primarily a data sharing 
back and forth as time has gone by.
    In addition, we have a reporting system set up to let us 
know if they have problems with the Whittier Narrows unit, and 
if they do, then we can be aware of the fact that we may see a 
spike at that particular time.
    Mrs. Napolitano. Do you also share that same information 
with the Bureau?
    Mr. Aguilar. The Bureau is kept updated on a regular basis 
on all our activities.
    Mrs. Napolitano. Considering the long history of the 
contaminants and the uncertainty of those monitoring, and I 
don't hear anybody say that they are looking at new areas to 
check to test, it is such a wide area it could conceivably be 
more either migration or new spots, and I can tell you from the 
tank farm in Norwalk that has happened. They found new 
contaminants even though after 15-20 years they thought they 
were well underway of being able to contain it and clean it, 
and yet they found new areas of migration.
    So is anything being done to be able to try to see that 
there is reason to be able to continue doing the not only 
monitoring but also the extension of cleanup?
    Mr. Aguilar. At this particular moment, we are continuing 
on the original cleanup plan and the original monitoring of the 
area. We have not gone beyond that. We are trying to see where 
the containment is at this particular time. Certainly, once we 
get this JPA together, once we get the operation back into 
order, then we can consider that as a possibility.
    Mrs. Napolitano. When you were considering the shutting 
down of the facility, did it come into play the amount of time, 
trouble, money and effort that it would take should a new 
contaminant be found or additional contaminants be found and 
have to go back online?
    Mr. Aguilar. We did take into consideration the possibility 
that that would happen, and we did have some very preliminary 
figures available as to what the cost would have been to 
restart. The fortunate part would be that the infrastructure 
would be in place, but in all likelihood, the internal parts of 
it, the filters, the actual active part of the purification 
system would have to be redone totally, and that would have 
been running in about the $500,000 to $1 million range just for 
that.
    We would probably have had to sink a couple of more 
monitoring wells as well at that particular time. That would 
have been a more sizable expense of about a million, $2 
million.
    Mrs. Napolitano. Did you take into consideration how hard 
it would be for us to try to get something moving here in 
Congress after we expended the amount of money and then shut 
down without notification?
    Mr. Aguilar. We certainly did, and we certainly did not 
want to take that option if we could avoid it, and fortunately, 
the cities came forward and said we would like to develop this 
partnership and keep this project going, which was really quite 
a godsend. We very much appreciate it.
    Mrs. Napolitano. OK. In your testimony, you have attached a 
chart indicating the amounts utilized for the $10 million that 
have been expended toward your particular project, and I see 
there is a little bit of an interesting scenario in the last 
two years. You are spending more money and producing less 
water. Why?
    Mr. Aguilar. I believe that we have increased through the 
years as we have taken more water out of the ground, the 
expenditures have increased. At various times, there may be an 
increase in cost simply because it is a maintenance schedule. 
You will pull less water during maintenance and your costs will 
go up. In addition to that, we have had increased power costs 
in the last few years that hadn't been expected.
    Mrs. Napolitano. How often do you maintain?
    Mr. Aguilar. Well, it is a constant monitoring and it 
depends on what the readings are at each quarter. So I don't 
have the maintenance schedule with me, but I can provide that.
    Mrs. Napolitano. Well, I would certainly like to have an 
idea as to why there is less water produced for the more money 
that you are expending on those projects.
    Mr. Aguilar. I can provide the schedule for that.
    Mrs. Napolitano. Thank you. Mr. Jensen, one of the 
attachments in the testimony shows the location of the 
contaminated plume. Would you describe the impact it would have 
on the water supply, the number of cities involved, probably 
the residents and possibly the impact on the economy?
    Mr. Jensen. Yes, Madam Chair, I would like to respond to 
that question. As indicated in our testimony, both the San 
Gabriel and Rio Hondo spreading grounds are directly in the 
path of the contaminated plume, and we are deeply concerned 
that if the contamination reaches those two areas, the impacts 
on not only three cities but also all the cities in the Central 
Basin will be catastrophic.
    Going back to your question about the cost if you were to 
shut down the facility, quite honestly, the bigger cost is what 
happens if you shut down the facility with respect to the local 
communities and their water systems.
    Both Santa Fe Springs and Pico Rivera are investing a lot 
of local taxpayer dollars in trying to upgrade our systems to 
make sure that we have reliable water sources, and if the 
contamination were to continue to migrate, Pico Rivera's wells 
are very close to the plume as it is right now, those wells 
could be shut down. They could have to incur expenses for 
treatment. They would most likely have to begin to buy even 
more expensive water from metropolitan, which would lead to a 
horrendous cost increase for just that city, and that is just 
one example of what could happen to all the cities in the 
northern part of the Central Basin area.
    Ultimately 2 million people are at risk if we prematurely 
shut down the WQPP without making sure that the problem that 
was really built to address has gone away.
    Mrs. Napolitano. Could you give me a comparison of the cost 
of the imported water per acre foot as regards to your produced 
by the well?
    Mr. Jensen. Metropolitan water currently costs $527 an acre 
foot. It is going up in January. It goes up every six months, 
so the projections for several years out are that the cost of 
water will be well into the $600 per acre foot. Groundwater 
produced by the cities, which is our most reliable and most 
cost-effective source, runs about $250 an acre foot. So you can 
see there is a substantial difference in cost there between 
those two sources of water.
    Mrs. Napolitano. That is quite telling.
    To both Don Jensen and Art Aguilar, the cities that form 
the JPA, the three cities that we have been discussing, have 
you discussed with the Bureau how they would administer the 
funds?
    Mr. Aguilar. What will be the actual role in terms of how 
the funding would take place, it appears that the Central Basin 
would continue to be the agency through which the funds would 
go through, and from that point, we would work with the cities 
as to the application of the same. We would still need to work 
with the Bureau in terms of some of the technical aspects of 
it, but we don't anticipate that there will be a great deal of 
problems because we really won't be changing any of the basics 
of the contract with the Bureau.
    Mrs. Napolitano. Mr. Quint, does the Bureau charge 
administration fees for administering the fund?
    Mr. Quint. Yes, we have a small fee that is part of our 
administration of the grants. To date, we have spent 
approximately $700,000 toward administering these grants, which 
total now, as was stated earlier, around $70 million.
    Mrs. Napolitano. You charge by percent. What percentage 
would that be?
    Mr. Quint. About 1 percent.
    Mrs. Napolitano. Your statement--this is what I was 
referring to earlier, Mr. Quint--references the Bureau's 
traditional mission. To me, reclamation means all of it, the 
whole picture of water. Would you try to explain what the 
Bureau's mission is and who decides what the agency's mission 
is? It is certainly not the cities. And when was it decided 
that the Bureau's mission is limited to delivering water and 
power in an environmentally responsible and cost-efficient 
manner?
    Mr. Quint. I think that statement is our written mission 
statement which has developed over the years. It is not just 
limited to those types of things. As Congress authorizes other 
projects, as Congress gives us direction to both authorize and 
through the appropriations process, we use that direction to 
help decide which and what we go forward to do.
    Mrs. Napolitano. Well, that is all well and good except I 
can remember I think only one bill that is before this 
Subcommittee that the Bureau approved of.
    Mr. Quint. And it really comes down to a matter of 
resources.
    Mrs. Napolitano. Then why doesn't the Bureau say when you 
come before this committee that you don't have the money and we 
need to increase the budget?
    Mr. Quint. I believe our testimony does say that.
    Mrs. Napolitano. Well, in a round-about way.
    Mr. Quint. We will try to be more explicit with that in the 
future.
    Mrs. Napolitano. It would be very much appreciated, sir.
    Do you oppose Mr. Dreier's bill because of the mission 
statement, or is it something else that you feel is not as 
important in the management of the lower Colorado River?
    Mr. Quint. No, we fully support the intent of the bill. It 
is just a matter of resources and not having the budget ability 
to support all the needs in the West.
    Mrs. Napolitano. OK. Is Southern California dependent on 
the Colorado River imported water?
    Mr. Quint. Absolutely.
    Mrs. Napolitano. And would Mr. Dreier's bill decrease our 
dependence of imported water from the Colorado?
    Mr. Quint. As I understand the project, yes.
    Mrs. Napolitano. And again, I am confused by the mission of 
the Bureau and the position they take on our bills that are so 
critical to our Western states specifically. I would think the 
bill would improve the traditional mission management of the 
lower Colorado, so I am really confused when it comes to the 
stance that the Bureau takes on the projects.
    Mr. Quint. And I understand that. To restate, we agree with 
the intent of this bill. It really comes down to, with the 
backlog of projects that we have already authorized, we just 
don't have enough budget to cover all those needs in the West.
    Mrs. Napolitano. I am beating a dead horse, I know.
    I would like to submit some more questions in writing 
because I have a slew of things that really do not make sense 
to me and I am sure to some of the members of the Subcommittee, 
and hopefully maybe we can meet with the Commissioner and some 
of the administration to find out how we can increase the 
budget so then the Bureau doesn't take a beating every time 
they come before the Subcommittee.
    Mr. Quint. We would appreciate that.
    Mrs. Napolitano. So would we.
    With that, does anybody have any questions? No.
    Well, thank you very much for your presence. The record is 
open for 10 business days for any additional testimony, and we 
really appreciate your forthrightness and your ability to be 
helpful in these matters. Thank you.
    We will continue with the second panel, and while we are 
taking our respective places, H.R. 2498 is the next bill we 
will consider that provides the study to develop an integrated 
regional water management plan and H.R. 2535, the Tule River 
Tribe Water Development Act. We have again Mr. Quint on the hot 
seat who will testify on both bills on behalf of the Bureau, 
and on H.R. 2498, testifying will be Sargeant Green, Manager of 
the Westside Resource Conservation District and Consultant for 
the California Water Institute, and third, Mr. Richard Moss, 
P.E. with the Provost & Pritchard Engineering Group in Visalia.
    Testifying on H.R. 2535 will be Alec Garfield, Director of 
Water Resources Department for the Tule River Tribal Council 
from Porterville, California, and fifth, Philip Gregg Larson, 
the President of South Tule Independent Ditch Company, also 
from Porterville.
    I would like to have Mr. Costa begin with the introduction 
since it is his bill.
    Mr. Costa. Thank you very much, Madam Chairwoman, for all 
of your good work, for your leadership in this committee and 
for the passion that we share to try to address our nation's 
water resources. In particular, I want to note that since 
taking the chairmanship of this Subcommittee, you have taken 
your time to visit all areas throughout California. In 
particular, your visit to the San Joaquin Valley this summer in 
July to look at both of the problems, or multitude of problems 
I should say, in the valley, both on the east side and the west 
side, is a testimony to your passion and to your desire to try 
to address the challenges we face in California as it relates 
to our water needs.
    The purpose of this bill is straightforward and contained 
in the descriptive. It is to develop a regional plan, a roadmap 
so to speak, for our long-term water needs on a regional water 
planning basis to include the local water agencies, the 
counties and the cities in the San Joaquin River Hydrological 
Region, the Tulare Lake Region, inclusive of the current 
Tulare, Kings, Fresno, Madera and Merced Counties as well as 
Stanislaus and San Joaquin. This roadmap when the plan is 
completed would be used as a mechanism to solve long-term water 
needs in sustaining our water on an equitable basis.
    This is a bipartisan bill. It is supported in the region by 
Congressman Cardoza, Congressman Nunes, Congressman Radanovich 
and Congressman McCarthy and myself. The five members 
representing the eight counties in the area are all coming 
together to work on this important effort.
    When this study is complete and we get buy-in, hopefully we 
will break it down into the four water challenges facing our 
region and I might say facing the entire West as well as 
California. That is water supply, that is water quality, that 
is environmental restoration, and that is flood control-related 
issues. And if we are successful, it will provide the basis for 
innovative financing that could include but not be limited to a 
joint powers authority that would include all the water 
agencies, the counties and the cities, in essence finance much 
of what needs to be done in our long-term water supply needs, 
our water quality, our environmental restoration as well as our 
flood control.
    I don't need to tell the Chairwoman or the members of this 
committee that we are in a water crisis in California. We are 
in a water crisis, and we have been living on borrowed time. We 
have a water system in California that I would estimate is 
currently designed to support 20 million people. Yet today in 
California, we have over 37 million people. By the year 2025, 
it is estimated that we will have an additional population 
growth of 15 to 17 million more people. That will put 
California with over a population of 50 million people, and we 
therefore are living on borrowed time.
    We have an interesting confluence in this water crisis of 
what is a Mother Nature potential drought, the last drought we 
had was 1988 to 1992, a six-year drought. Last year we had 28 
percent normal precipitation and snow pack, and if that 
continues in the next year or two, it will be a magnitude that 
I think will pale in comparison to the last drought we had in 
California.
    That, coupled with a manmade drought, I think creates a 
perfect storm. We have judicial decisions that have resulted in 
reduction of water. I have noted that in the last 17 years as a 
result of judicial decision and legislative decision, and I 
will submit this for the record, there has been a redirection 
of water from the San Joaquin Valley in dry years of over 2 
million acre feet of water; in wet years, approximately 1.2 
million acre feet of water. That is water that has gone to 
other parts of the state for meritorious reasons. The water has 
left the San Joaquin Valley. Therefore, you have the confluence 
of a manmade drought together with Mother Nature.
    Now this proposal, this plan before you was a vision in 
2002 when the Federal government completed its effort with the 
State of California in what was known as the CALFED decision. 
The record of decision envisioned that all the regions of 
California would come up with a regional water management plan. 
As my other witnesses will testify today, other regions of 
California are ahead of us in developing their regional 
roadmap.
    We know climate change is taking place. It is impacting all 
portions of the United States and the Southwest, particularly 
California. Not making a decision could result in a reduction 
of another potential million acre feet of water not just to the 
valley but between 12 percent of water to Southern California 
in wet years, 37 percent of water in dry years; the Santa Clara 
Valley, potentially 12 percent in wet years, 37 percent in dry 
years. So this is timely. This is necessary. It is long 
overdue. It also couples together with the Governor's plan on a 
water bond, which I support.
    Now let me close by saying that this is a partnership like 
other good efforts. We have local efforts, some of these 
witnesses will testify from the local level. They are providing 
in-kind support. We also have the State of California, the 
Department of Water Resources has committed approximately a 
million dollars to support this study. We are looking for a 
similar effort from the Federal level, which is why this 
authorization bill is before you. This will be undertaken by 
the California Water Institute at Fresno State, that will be 
the facilitator of this effort, together with the local water 
agencies.
    For all of those reasons, I ask this Subcommittee to 
support the effort, and I respectfully would like to submit 
another letter for the record by the Association of California 
Water Agencies that also supports this legislative effort as 
well.
    With that, I want to thank my witnesses for coming here. I 
want to thank the Chairwoman for her time and her patience and 
for visiting the valley once again to meet with my constituents 
and to hear their concerns as she knows so well.
    So, with that, I would like to defer to the witnesses who 
are here today to testify on behalf of the bill.
    Mrs. Napolitano. Thank you, Mr. Costa.
    Next, Sargeant ``Sarge'' Green, Manager of the Westside 
Resource Conservation District and Consultant to the California 
Water Institute.

   STATEMENT OF SARGEANT ``SARGE'' GREEN, MANAGER, WESTSIDE 
     RESOURCE CONSERVATION DISTRICT, AND CONSULTANT TO THE 
         CALIFORNIA WATER INSTITUTE, FRESNO, CALIFORNIA

    Mr. Green. Thank you very much, Madam Chairwoman, Members 
of the Subcommittee. My name is Sarge Green. I am the Manager 
of Westside Resource Conservation District. That is 1,100,000 
acres of western Fresno County. We are here to ask for your 
support on H.R. 2498.
    Backing up what Congressman Costa talked about, native 
water in the San Joaquin Valley is very unpredictable. We go 
from wet to dry in a heartbeat, and 2006 and 2007 are perfect 
examples. 2006 was very wet. I had a levy break in my area in 
western Fresno County. 2007 has been one of the driest on 
record.
    Water in the San Joaquin Valley is a competitive item. It 
is not, as in our sister area in the great Central Valley, the 
Sacramento Valley, it is not a surplus commodity, and any time 
you have competition, it creates adversity and it is difficult 
at times to come together. The contrast in the Sacramento 
Valley is that there are net surplus and organized very well in 
terms of their water supply, and they have large regional 
organizations that have been around for a number of years and 
have performed admirably in that regard. We have been less 
successful.
    The loss of water that we are talking about has worldwide 
implications from the San Joaquin Valley. We are, as you know, 
a net exporter of fruits and vegetables. We also have some 
unique crops like almonds and canning tomatoes that are world 
leaders. The 15-year decline that we have had has forced a 
shift of permanent crops. For example, many people criticize 
cotton. We are down from 1.5 million acres of cotton to 500,000 
acres of cotton in the San Joaquin Valley, and most of it is 
Pema, an unsubsidized variety.
    The water actions that the Congressman talked about have 
been devastating, and frankly, the greatest impacts have been 
on the small communities, and I am here to discuss those 
impacts also.
    I have participated in western Fresno County in an economic 
development organization called the I-5 Business Development 
Corridor, and it is made up of some of the poorest communities 
in the State of California and the San Joaquin Valley. Huron, 
San Joaquin, Mendota, we bootstrap and help ourselves. We have 
done things like forming this regional organization to advance 
business development through loans, vocational education, 
transportation corridors to diversify and improve our economy.
    We have 15 to 30 percent unemployment in these communities. 
You had a Congressional Research Service report a few years ago 
that outlined the problems in the San Joaquin Valley. The 
problem was that it blended the larger cities with the small 
communities so it doesn't truly reflect what has happened in 
those small communities, and a specific example in my area near 
Tranquillity is that if you saw an aerial photo, there is 
43,000 acres of land retired between Mendota and Tranquillity.
    We have proposed some remedies for this, and that is the 
regional water planning process. We need to help ourselves in 
the San Joaquin Valley, and that is what the regional plan is 
all about. The Federal actions that have been previously 
mentioned all contribute to the dramatic drop in water supply, 
and the only way we can do anything is to help ourselves by 
integrating all the potential opportunities that we have.
    There is a compelling Federal interest in this matter 
because not only do we have the actions, the Delta from 
Northern California, but also the Bureau and the Corps operate 
and maintain and/or contract out the operation and maintenance 
of many in-valley facilities, and a lot of the storage 
reservoirs.
    One might ask, why Fresno State and California Water 
Institute at Fresno State? Well, one of the things I mentioned 
earlier is that the competitive nature in the San Joaquin 
Valley has led to adversity and hardship and, quite frankly, 
bad feelings in the past amongst the water entities, and we 
believe that by facilitating through the California Water 
Institute we can transcend some of our problems in the past and 
then perhaps move the whole integrated plan forward much more 
smoothly. Thank you. That concludes my testimony.
    [The prepared statement of Mr. Green follows:]

          Statement of Sargeant J. Green, Secretary-Manager, 
         Westside Resource Conservation District, on H.R. 2498

    Ladies and Gentlemen:
    H.R. 2498 proposes to provide for the development of a ``San 
Joaquin Valley Regional Water Plan''. The following testimony posits 
the rationale and describes the Federal interests in developing such a 
plan.
BACKGROUND
    The San Joaquin Valley portion of the Great Central Valley area of 
California has chronically been water short since broad-scale 
irrigation of the area began in earnest with the development of the 
deep-well turbine pump in the early twentieth century. The San Joaquin 
Valley watersheds and their inclusive river systems have always been 
unpredictable as to their supply availability. This in turn has 
impacted the ability to effectively manage those supplies. There has 
been no such thing as ``average''. Many times in the recorded water 
history of the San Joaquin Valley the rivers and streams have been wet 
or dry, period. The 2006 and 2007 water years are perfect examples. The 
2006 water year was extremely wet with flooding and levee failures up 
and down the San Joaquin Valley. 2007, on the other hand, has been so 
dry it will hit the record books.
    The southernmost portion of the San Joaquin Valley, the Tulare 
Basin (Fresno south), is a closed hydrologic basin. Only in rare large 
flood years does it connect to the San Joaquin River Basin (as in 
2006). As a result, much of that hydrologic area has naturally 
accumulated salt in significant portions of its inclusive groundwater 
basins, especially on the western side of the Valley. Imported northern 
California Delta water brings additional salts to the Basin. The result 
of these conditions is that native good quality surface or ground water 
has been relatively scarce in the Valley as a whole and therefore a 
competitive commodity. Competition has historically spurred adversity 
and protectionism between the haves and have-nots. In contrast, the 
northern portion of the Great Central Valley, the Sacramento River 
Basin, has historically enjoyed a surplus of water that became the envy 
of the balance of the State and ultimately a source of export water for 
both State and Federal water projects for that critical resource.
    When the Sacramento Valley water interests became alarmed that 
eventually the exports could impact their future needs they 
collectively organized. That pattern of organization continues today. 
When new water resource management programs or ``externalities'' come 
along such as the relatively recent ``integrated regional water 
management planning'' (California Water Code Sections 10540 to 10546) 
or the California Central Valley Waterboard ``Irrigated Lands Program'' 
(a regulatory program for control of irrigation return flow 
pollutants), the Sacramento Valley galvanizes and has been very 
effective at developing basin-wide, collective organizations such as 
the ``Northern California Water Association''. In contrast, the San 
Joaquin Valley has not had any such region-wide collective force. 
However, with the continuing loss of significant portions of the 
imported supply from northern California over the last 15 years, the 
time has come for the San Joaquin Valley to lay down arms and work 
together. That is one of the main purposes of the San Joaquin Valley 
Regional Water Plan; to create an environment where the San Joaquin 
Valley community-at-large can work together to optimize every 
opportunity for in-Valley water management without cannibalizing other 
portions of the State.
    The impact of the loss of water to the Valley has State, national 
and world-wide implications. The San Joaquin Valley is one of the most 
important agricultural areas in the world and a significant source of 
fruits and vegetables for the nation and export market. It produces 
unique crops that dominate world markets such as canning tomatoes and 
almonds. The loss of water has changed the cropping pattern by reducing 
the amount of traditional row crops and shifting it to permanent crops. 
Many critics have complained about the production of subsidized crops 
such as cotton. This year Valley cotton acreage is down to 500,000 
acres from a historical average of 1.5 million acres and the dominant 
variety grown is Pima, a fine-fiber, un-subsidized variety. The impact 
of these changes to some of the rural communities is the loss of 
agricultural jobs. A shift to permanent crops reduces the labor demand, 
further impoverishing already disadvantaged communities. Recent 
immigration issues have tightened the labor availability but what 
people fail to understand is the permanent rural resident population 
used to move from crop to crop cobbling together an entire year's worth 
of labor. Now they only have very seasonal opportunities. That impacts 
their total income in a year.
    The loss of imported northern California water into the San Joaquin 
Valley has come as the result of State, Federal and local agreements, 
State administrative findings, Federal statute changes and far-ranging 
Federal court decisions. The following is a summary of some of the 
related major actions over the last 15 years.
    1.  CVPIA, 1992--Federal statute, diverted up to 1 MAF from the San 
Joaquin Valley to environmental purposes.
    2.  Monterey Agreement, 1994--CA State Water Project Contractors 
internal agreement, diverted 130 TAF from Valley agricultural to urban 
water contractors, water transferred mostly from Kings and Kern 
Counties.
    3.  Winter Run Salmon Federal ESA listing, 1994, lead to numbers 4 
to 7 below.
    4.  VAMP, 1995--Vernalis Adaptive Management Program agreement, 
joint State-Federal administrative decision, derived from CA State 
Water Resources Control Board, Water Rights Decision 1641--diverted San 
Joaquin River Basin flows to anadromous fisheries management in the 
Delta, includes a substantial portion of water stored in the Federal 
facility New Melones Reservoir, on the Stanislaus River, precluding its 
use for other project purposes.
    5.  Trinity River Adaptive Management Program, 2000 Federal 
administrative action, diverts additional Trinity River flows as 
necessary above CVPIA mandate of 340 TAF.
    6.  San Joaquin River Settlement, 2006, Federal court settlement of 
NRDC vs. Interior, restoration of the San Joaquin River for salmon with 
estimated flow of 160 TAF to be released down the main stem.
    7.  Delta Smelt ESA Federal court decision, August 2007, an 
implementation plan is under development, initial estimates of loss of 
one-third of pumping capacity windows of State and Federal Delta 
pumping plants in normal year-types.
    The results of these various actions have had, and will have, the 
most impact on agricultural water supplies in the San Joaquin Valley 
and the rural communities that depend overwhelmingly on agriculture for 
their economic engine. The larger metropolitan areas in the San Joaquin 
Valley have been somewhat hardened from these impacts because of 
explosive population growth and attendant construction and business 
development during the last ten years. In addition, almost all of the 
large cities are on the eastern side of the Valley which lay over or 
near substantial ground water and surface water sources of excellent 
quality.
    I can specifically relate the practical impacts of the losses of 
agricultural water supplies to smaller, disadvantaged Westside Valley 
communities in Fresno County as I have participated in a rural area 
economic development effort known as the I-5 Business Development 
Corridor which includes many of the small communities in that area. 
That organization was started in 1994 by the City of Firebaugh in 
response to both the impacts of the implementation of CVPIA and the six 
year drought in California that occurred from 1988 to 1994. The purpose 
of the organization was to speak with one regional voice on the 
changing conditions and to prioritize regional activities that would 
assist in diversifying the economy of the member small cities and 
communities. The group has championed vocational education, 
transportation improvements and business loans to adapt to the new 
conditions with mixed success. The communities that joined besides 
Firebaugh included: Kerman, Mendota, San Joaquin and Tranquillity. 
Several years later, the communities of Firebaugh, Mendota and San 
Joaquin dropped out as their treasuries could no longer support the 
dues, however, Huron and Coalinga joined in their stead.
    The practical impact of the drought and the parallel permanent 
surface water losses in the ensuing 15 years has been low median 
household income, high unemployment and low education attainability in 
western Fresno County. The average unemployment for communities like 
Mendota, San Joaquin and Huron has hovered between 15 and 30% since the 
beginning of the natural and man-made drought. Some of these findings 
were documented in a special Congressional Research Service (CRS) 
report completed on behalf of the San Joaquin Valley Congressional 
delegation in 2005, however the statistics were blended for the entire 
region, somewhat masking the actual difference in rural communities 
because of the data from the five large metropolitan areas. 
Nonetheless, the information is consistent for all rural communities 
from the entire north to south and east to west transects in the San 
Joaquin Valley. From Vernalis in San Joaquin County to Hilmar, Gustine 
and Dos Palos in the San Joaquin River area; from Firebaugh to Huron in 
the Fresno County Westside, Avenal to Alpaugh in Kings and Tulare 
Counties; Chowchilla to Orange Cove and Lindsay to Richgrove on the 
Eastside of the Valley and Delano to Buttonwillow in Kern County, the 
greatest impact from changes in the water-dependent economy have been 
in the small rural communities. All these communities are poverty-
stricken and deficient in many of the amenities we all take for 
granted, ranging from clean drinking water to parks and reasonably 
effective schools. An important comparison made in the report is that 
the San Joaquin Valley is the ``Appalachia of the West''. In fact the 
data presented indicates that much of the rural Valley is in worse 
economic condition than Appalachia. The CRS report is included as a 
reference for this testimony.
    My personal experience is that many of the growers in Tranquillity 
also farmed in Westlands and during my tenure as manager of 
Tranquillity Irrigation District, I saw the number of farm operators in 
Tranquillity drop from over 50 to less than 25. Many of them gave up on 
their ground in Westlands; they were bought out for the water supply so 
it could move upslope to the permanent crop ground. Coincidentally, it 
was clear that the workers from these operations were not making the 
incomes they had previously as the ``city'' drinking water accounts 
went from less than 5 delinquencies per month and a ``clean up your 
bill when you get a chance to'' attitude to more recently as many as 20 
to 25 per month that were forced to pre-pay or have their water shut 
off. A high percentage of ``deposit-required'' and pre-pay accounts 
continue to this day. Many of the community agricultural workers have 
become so destitute they have to carefully juggle their finances to pay 
to for such a basic service as running water.
    Another clear physical impact of the change in water supply, which 
resulted from the above-mentioned significant internal policy changes 
in Westlands, was the amount of fallowed land between the communities 
of San Joaquin, Tranquillity and Mendota. A noticeable swath of over 
43,000 acres is unmistakably visible when you drive State Highway 33 
south of Mendota or see an overhead aerial picture. That area is more 
than the combined acreage of the adjacent James and Tranquillity 
Irrigation Districts, both of whom are very mature Districts (1920 and 
1918 respectively) on old ``Fresno Slough'' (the northern flood channel 
of the Kings River) and the eastern border neighbors of Westlands 
(hence the co-mingling of owner/operators).
    Many of us close to the water business in the San Joaquin Valley 
are cognizant of the inevitability of the changes that are occurring in 
the availability of imported water. That is all the reason more we need 
to carefully plan for the optimization and utilization of what the 
Valley can expect and/or properly manage its own native resources. Some 
specific examples that need to be rationally explored and should be 
included in the Regional Plan include:
    1.  Development of new infrastructure for rural communities 
including high quality water for drinking and up-to-date waste 
treatment disposal capacity so as to assist small communities in 
attracting new business and diversifying their economies. Many Valley 
community and individual drinking water systems are plagued with poor 
quality ground water from naturally occurring contaminants such as 
arsenic and uranium while others have anthropogenic contamination from 
legacy chemicals such as DBCP or nitrates from animal wastes and 
fertilizers.
    2.  Environmental restoration of permanently fallowed lands, with 
some potential economic gain through eco-tourism and/or fee-for-service 
ecosystem mitigation banks for land use changes elsewhere in 
California.
    3.  Ground water banking; the good news is vast areas of empty 
space exist in San Joaquin Valley ground water basins from eastern San 
Joaquin County to northern Kern, the bad news is vast areas of empty 
space exist in San Joaquin Valley ground water basins.
    4.  Finding and exploring new technology in water treatment to 
allow use of broad areas of brackish ground water and manage salt 
residuals in environmentally friendly ways; this technology has to be 
married to other technology that keeps energy costs reasonable such as 
photovoltaics, biofuel and carbon management technologies.
    5.  Identifying future reliable surface water management 
alternatives such as in-Valley conveyance and storage facilities. 
Capturing more flood water and storing it on retired lands or flood 
plains where we can obtain easements are examples of alternate methods 
of storage, however we cannot ignore looking at expanding existing 
reservoirs or adding new ones.
THE COMPELLING REASONS FOR FEDERAL PARTICIPATION
    As noted above, many of the changes in water supplies for the San 
Joaquin Valley can be directly related to the changes in Federal water 
policy and the need to shift the water to other uses. Federal 
environmental laws and the related circumstances in the complex 
Sacramento-San Joaquin River Delta aquatic environment have engendered 
many of the water supply changes. However, the impacts of these ongoing 
changes on some of the third parties have not been adequately 
mitigated, especially in rural communities. These changes have occurred 
in a relatively short period of time, 15 years. Also, we have gone from 
a time of completion of the implementation of the original Federal 
Central Valley Project purposes and full use of their associated water 
supplies to a shrinking back of almost one-third of that peak in one 
and a half generations of rural citizens.
    In addition, many of the water management facilities in the San 
Joaquin Valley continue to be under the control or operated by Federal 
agencies. Most of the water storage reservoirs on all the river systems 
in the San Joaquin and Tulare Basin hydrologic areas are either under 
the jurisdiction of the Army Corps of Engineers or the Bureau of 
Reclamation. In addition, those same agencies assist in the management 
of the stored water resources either through cooperative agreements for 
operating delivery systems or through regulatory responsibilities such 
as levee integrity and flood control. For this reason those agencies 
need to participate in any Valley Regional Plan.
    Those of us testifying before you today are asking our 
Congressional and Federal Executive Branch partners to take a step back 
and recognize all the water loss in the San Joaquin Valley. The 
combined Federal and State policy issues such as Delta and San Joaquin 
River environmental restoration has to be acknowledged and interest you 
in investing in a process that provides the opportunity to address the 
realities of the job losses, poor education attainment and 
impoverishment in the rural communities as well as the opportunity to 
restore the natural environment in a sensible way. That process is a 
``San Joaquin Valley Regional Water Plan''.
    One might ask why California Water Institute (CWI) at Fresno State? 
The answer is related to the earlier mentioned problems of the history 
of contention amongst water entities in the San Joaquin Valley. CWI can 
transcend those parochial chasms and hopefully find solutions for the 
benefit of all Valley residents. Secondly, CWI competed for the role 
under Governor Schwarzenegger's ``California Partnership for the San 
Joaquin Valley'' and won the position with a seed grant to provide the 
coordination and facilitation of the water work under that program. It 
makes sense to integrate that role with any Federal efforts. I have 
attached an organizational chart of CWI and its leadership for your 
perusal.
    Thank you for this opportunity and please give all due 
consideration to our request so the San Joaquin Valley Regional Water 
Plan process can be developed and implemented to provide a sensible 
transition to the new realities and opportunities of the 21st century.
Attachments:
    1.  Map of ``integrated regional water management planning'' 
efforts underway in the Great Central Valley
    2.  Staff organizational chart and biographical sketch of Dave 
Zoldoske, Executive Director of the California Water Institute at 
Fresno State.

[GRAPHIC] [TIFF OMITTED] T8016.002

[GRAPHIC] [TIFF OMITTED] T8016.003

[GRAPHIC] [TIFF OMITTED] T8016.004

                                 
    Mrs. McMorris Rodgers. OK. Next is Richard Moss, Provost & 
Pritchard Engineering Group.

   STATEMENT OF RICHARD M. MOSS, P.E., PROVOST AND PRITCHARD 
          ENGINEERING GROUP, INC., VISALIA, CALIFORNIA

    Mr. Moss. Thank you, Madam Chairwoman and Members of the 
Subcommittee.
    My name is Richard Moss, Vice President for Water Resources 
for a civil engineering firm in the Central Valley known as 
Provost & Pritchard Engineers. I have had the fortunate 
pleasure of having my entire career spent, 30-year career, in 
the San Joaquin Valley doing largely water planning-related 
activities and water management.
    I have experienced really what I think are three eras of 
water management planning in the Central Valley. I got on the 
tail end of what was the big project era, coming in near the 
completion of the state water project and much of the Central 
Valley project. Then most of my career I had the opportunity to 
spend in what I call the ``holding onto what we have got'' era 
where we have been trying to maintain the water resources that 
were previously developed by our forefathers and trying to hang 
onto the water supplies that we had. Really the era of big 
projects was deemed to be dead, and we were more focused on 
district-by-district kinds of projects.
    We are now entering a new era of water management planning. 
We have new needs for the valley, different needs. We have a 
quite frankly different constituency than we had earlier, a 
much more diverse constituency. The result of this new era or 
the way to define it I think or the definition of it is really 
one of an integrated regional planning era, and this is focused 
by or this comes to being by focusing on a variety of needs and 
getting more people involved and more effort placed from a 
variety of entities, trying to apply multiple strategies, 
different kinds of strategies to solve many problems at once.
    It certainly involves a much broader public involvement in 
the deliberations and the planning that is going forward. It is 
I think especially effective and can be even more effective if 
we have state and Federal funding to support these efforts, but 
it is very important to allow the local initiatives to take 
place and local priority-setting to be what controls.
    While the San Joaquin Valley, as has been mentioned, is 
lagging somewhat in terms of this planning effort, it certainly 
wasn't the fault of our local congressman who called for the 
development of a San Joaquin Valley plan a couple of years ago. 
Congressmen Costa, Radanovich, Cardoza and Nunes and most 
recently Congressman McCarthy have all supported this effort 
and have really beat the drum, if you will, with the local 
water agencies to come on board. They have promoted this effort 
today on what I would call a shoe-string budget, having been 
facilitated largely by Cal State, Fresno and the California 
Water Institute.
    Our work is really cut out for us given the size of the 
region and the number of water management entities. I have 
passed out a map, and I have a map here on the left which shows 
the San Joaquin Valley and the huge number of water management 
entities, and those I should note are just the public agencies. 
That doesn't show the community services districts and the 
public utility districts that are often run by the counties. It 
doesn't show the private water companies that own significant 
portions of the water rights for most of our local streams, and 
it doesn't show the tens of thousands of groundwater pumpers, 
those individuals, companies, farmers, homeowners that have 
wells that pull from this resource that by and large are 
unregulated and kind of doing their own thing, if you will.
    As has been talked about, we face many issues here in the 
San Joaquin, including San Joaquin River restoration, the 
collapse of the Delta and the pumping curtailments that are 
being imposed as a result of Delta smelt. We have all heard in 
the past about ag drainage and some of its issues. I think it 
is safe to say that this is the most significantly impacted 
region of the state, suffering in terms of reductions in what 
had been their historic water supply.
    Other issues of significance are the tremendous growth that 
is facing the region and water quality for, in particular, our 
poorer and more disadvantaged communities that really need 
improvements to their water quality. Another issue close to my 
heart is the loss of wetlands in the region and the need to 
protect and restore water supplies to much of the remaining 
private wetlands.
    I am here today obviously in support of this legislation 
and look forward to answering your questions. I believe this 
planning effort can be a critical link in making the outlook 
for San Joaquin Valley brighter in terms of its sustainability 
of the resource and ultimately the sustainability of this 
economy. Thank you very much.
    [The prepared statement of Mr. Moss follows:]

      Statement of Richard M. Moss, P.E., in Support of H.R. 2498

    MADAM CHAIRWOMAN AND MEMBERS OF THE SUBCOMMITTEE:
    I very much appreciate being given the opportunity to testify 
before the Subcommittee to provide insight as to the need for H.R. 2498 
and the water management planning it would provide. I am testifying 
today on my own behalf as a consulting civil and water resource 
engineer that has spent my entire professional career in the San 
Joaquin Valley assisting many water agencies and cities in their water 
resource planning. I am also here as a small citrus grower dependent 
upon local and regional surface and groundwater supplies to grow my 
oranges and mandarins and as a member of the Board of Directors of the 
Tulare Basin Wildlife Partners, a non-governmental, non-profit 
organization focused on the protection and restoration of native 
habitats, including wetlands, in the Tulare Basin portion of the San 
Joaquin Valley.
    I am Richard M. Moss. I am a professional registered civil engineer 
and the Vice President for Water Resources for the engineering firm of 
Provost and Pritchard Engineering Group, Inc. with offices in Fresno, 
Visalia, and Bakersfield in the San Joaquin Valley. We hope to soon be 
expanding our offices to the more northern part of the San Joaquin 
Valley as we do have numerous clients in that part of the Valley as 
well. I have been in the consulting business for the past six years. 
Prior to that I was the General Manager of the Friant Water Users 
Authority for over 15 years. The Friant Water Users Authority is a 
joint powers authority formed under state law comprised of 25 member 
agencies that serve the irrigation water needs of approximately one 
million acres of the worlds richest farmland, receiving water from the 
Friant Division of the federal Central Valley Project (CVP). I have had 
the opportunity to testify before this Committee on a couple of 
occasions in my past capacity as General Manager of the Friant Water 
Users Authority.
    I have had the great pleasure and a wonderful career of being 
directly involved in the water resource planning for much of the area 
to be directly benefited from the passage and implementation of H.R. 
2498. I can attest to the benefits to be had from taking a more 
coordinated approach to such planning.
Overview of Integrated Regional Water Management Planning
    The fundamental planning for the water resource needs of the San 
Joaquin Valley has been around for a very long time, including the 
notion of developing plans on more of a regional basis. Some of the 
earliest planning was done on the grandest of scale. For example, the 
planners of the CVP (originally conceived by the State and later 
assumed and carried out by the federal Bureau of Reclamation) laid out 
a project of statewide significance, importance and involvement. While 
the CVP has grown and expanded several fold in terms of its structures 
and its benefits, the earliest configurations of the CVP conceived of 
two large dams, one on the Sacramento River in the far northern part of 
the State and the other on the San Joaquin River in central California 
and a system of canals and water exchanges that could serve several 
million acres of existing and new farmland. The subsequent additions to 
the CVP, as well as the later development of the State Water Project, 
all involved water resource planning on a truly large, large scale.
    However, since those early days of water resource planning and 
water development, most of the water resource planning has come as the 
result of addressing a specific need within a region (or more likely 
within a specific water district) and the planning has consisted of 
little more then developing a plan to implement a project to address a 
specific need. As water resource engineers, we were told that the era 
of big projects was dead and to focus our thinking on making better use 
of the resources that our forefathers had already developed.
    We have now entered into yet another era of water resource 
planning. While for the first time in a long time there is active 
discussion of larger scale development of dams and conveyance 
facilities in the State, there remains the idea that before such new 
facilities can be constructed, or at least in conjunction with their 
construction, proof needs to exist that the existing water resources, 
as well as the proposed new water resources, are being optimally used 
and that the coalition of interests to be benefited by new water 
development needs to be very broad in nature; all with little or nor 
displacement of interests, obviously including environmental interests.
    This idea of an integrated and comprehensive approach to water 
management planning, encompassing a variety of water management needs 
with the potential for a variety of entities which have water 
management responsibilities to engage, is thus a relatively new idea 
and has caught on with great fervor within California. The thought 
behind this approach is that, unlike traditional water resource 
planning documents, an integrated regional water management plan 
(IRWMP) does not focus on one--or even just a few--facets of water 
resource planning. Rather an IRWMP investigates a broad spectrum of 
water resources issues, involving diverse interests through public and 
stakeholder involvement and attempts to integrate multiple water 
management strategies to solve multiple priority challenges. By 
building a broader coalition in support of an array of projects, the 
hope is to leverage that regional cooperation to successfully address 
multiple water resource objectives. This approach can be especially 
effective if the principle state and federal funding agencies for such 
water projects support this approach and are willing to defer the 
prioritization of how the their money gets spent to the local planning 
interests.
    At least some of the current focus on IRWMPs in California can be 
traced back to the development of the Santa Ana River Watershed Project 
in Southern California. This was a region rife with conflict over the 
management of their water resources and saddled with litigation that 
was costing millions of dollars annually to pursue with little in 
tangible results. After much struggle it was determined to address the 
various needs of the parties in a comprehensive manner and to try to do 
so using non-local financial resources. Their integrated regional 
approach, born out of conflict, has served as the basis for significant 
political will to address some pressing water resource needs. Their 
effort is now serving as the preferred model for addressing water 
resource issues where the need for assistance outweighs the ability of 
the state agencies to provide help and thus regional priorities need to 
be set; who better to set those priorities then the local folks.
    The State of California has really been emphasizing the need for 
this kind of water resource planning. In 2002, the state legislature 
passed and the Governor signed into law the ``Integrated Regional Water 
Management Planning Act,'' which lays out the legal basis providing for 
regional water management planning. Subsequently, the Californian 
Department of Water Resources prepared guidelines for the preparation 
of IRWMPs following the requirements of this law.
    Then the State put money behind their intentions of emphasizing 
regional planning via the grant funding processes coming out of 
Proposition 50 (the ``Water Security, Clean Drinking Water, Coastal and 
Beach Protection Act'') and Proposition 84 (the ``Water Security, Clean 
Drinking Water, Coastal and Beach Protection Act''), water resource 
planning and construction monies that were made available by general 
obligation bond acts. Being part of an IRWMP, or at least involved in 
the process of developing an IRWMP, is a prerequisite to receiving 
implementation grant funding under these propositions.
    Some obvious advantages to planning water resource management on a 
more regional scale include:
    <bullet>  Addressing the apparent prerequisite for accessing future 
state grant monies for local water projects;
    <bullet>  Broader political support for multi-purpose projects;
    <bullet>  Packaging of otherwise single purpose projects together 
as a single multipurpose project and reaping the benefits of broader 
political support for everyone involved;
    <bullet>  Cost savings from development of multipurpose projects;
    <bullet>  Pre-mitigation of project impacts by packaging of 
multiple projects providing benefits to potentially impacted resources;
    <bullet>  Local setting of priorities to avoid competing projects 
at the regional level where competitive grants or funding is involved;
    <bullet>  Spreading the burden of grant application costs and other 
``front-end'' costs associated with public works construction funding;
    <bullet>  Broader public involvement and awareness of local water 
issues and needs;
    <bullet>  Involvement and understanding of land use planners and 
decision makers on the regional availability (or lack thereof) of water 
supplies to support new development or the water related impacts of 
other land use changes;
    <bullet>  Urban constituency awareness of the local social and 
economic value brought by agricultural water agencies;
    <bullet>  Support from local advocacy groups due to their 
involvement in project formulation which lessens the opportunity for 
and effect of out-of-area advocacy groups;
    <bullet>  Development of inter-agency agreements for cooperation 
and service interconnection during drought of other emergencies.
    Unfortunately, the San Joaquin Valley has been slow to embrace the 
concept of IRWMPs and as a consequence is behind much of the rest of 
the State in development of IRWMPs. This slowness is not a result of 
recalcitrance or of lack of water management insight. I believe it is 
largely a result of the diversity of underlying water and contractual 
rights, the diversity of kinds of projects and the nature of these 
projects serving the area, and importantly, because of the defensive 
posture that most of the San Joaquin Valley water community has been in 
relative to trying to protect their existing water supplies and 
unfortunately suffering significant reductions in those supplies. 
Having said all of that, a number of what I would term as ``sub-
regional'' planning efforts have emerged and the level of communication 
and of activities to begin the development of a regional plan, or 
plans, is clearly catching hold.
The San Joaquin Valley Regional Water Plan
    Congressmen Jim Costa, George Radanovich, Dennis Cardoza, and Devin 
Nunes initiated the development of the San Joaquin Valley Regional 
Water Plan almost two years ago. Congressman McCarthy has now also 
joined in support of the Plan's development. They could see the need 
for their constituents to work together in addressing the region's 
collective water management needs. The California Water Institute (CWI) 
at California State University, Fresno was asked to facilitate the 
regional planning effort. Development of the San Joaquin Valley 
Regional Water Plan was organized into four sub-working groups. The 
four sub-working groups were organized by four water-related needs 
within the region: (1) Water Supply, (2) Water Quality, (3) Flood 
Control, and (4) Environmental Enhancement. Members of the water 
community, representatives of industries and communities relying on 
water, and organizations dedicated to the enhancement of the 
environment populated the working groups. The working groups also 
included irrigation district managers, water agency members, water 
resource engineers, government officials, agribusiness representatives, 
public works managers, and environmentalists. I have personally had the 
opportunity to chair the Environmental Enhancement sub-working group.
    Subsequently, Governor Schwarzenegger convened the San Joaquin 
Valley Partnership. The Partnership brings state agency secretaries and 
Central Valley representatives together to make recommendations to the 
Governor regarding changes that would improve the economic well being 
of the San Joaquin Valley and the quality of life of its residents, 
including recommendations regarding water resources. The 26-member 
Partnership, led by the Secretary of the Business, Transportation and 
Housing Agency, is composed of eight state government members, eight 
local government members and eight private sector members, along with 
two deputy chairs. With the comprehensive nature of the already started 
congressional regional water planning effort, the Partnership agreed to 
synchronize its water planning efforts with the ongoing process in its 
development of the Partnership's water action plan and associated 
recommendations to the Governor.
    The San Joaquin Valley Regional Water Plan under the leadership of 
the CWI has made good progress in identifying and polling the various 
interests of the region as to their water needs and the projects they 
believe are needed to meet those needs. This initial cataloging of the 
various interests, their needs and their projects was done on a 
shoestring budget and needs to be updated and further refined. The 
requirements of integrating the water planning requirements for the 
Partnership into the balance of the Partnership activities has also 
required the under-funded attention of the CWI staff.
    Meanwhile, as noted earlier, sub-regional planning efforts have 
been started within a couple of watersheds in the San Joaquin Valley. 
They clearly are in need of help in integrating their efforts into a 
bigger regional plan. These efforts are typically being lead by 
agricultural water interests that have a limited perspective as to all 
of the needs of their area given they are largely in the business of 
supplying water to just agriculture. They have been struggling with how 
best to engage and address the other water management needs of their 
areas such as drinking water quality, environmental water needs, and 
flood control.
The Need for H.R. 2498
    Others on this panel in support of this legislation will describe 
for you the water management crisis that is facing much of the San 
Joaquin Valley. Since the creation of the San Joaquin Valley Regional 
Water Planning effort by our four local congressmen, much has changed 
to lessen the reliability of water supplies for all users of water in 
the San Joaquin Valley. While the supplies and their reliability are 
shrinking, at the same time the demands for water, particularly clean 
drinking water, are increasing, as the region is one of the fastest 
growing in the State, if not the Nation. There are also many small, 
unincorporated communities that are struggling to provide clean, 
affordable drinking water. To try and tackle their relatively small 
(but hugely significant if you are the ones having to drink this water) 
problems community-by-community is nearly impossible. To plan and 
operate regional solutions for these problems, like regional surface 
water treatment plants, is clearly what is needed.
    A lesser-discussed crisis is the one of the loss of wetlands in the 
San Joaquin Valley. Virtually all of the wetland loss occurred prior to 
the time when wetland protections came into being with the passage of 
laws such as the federal Clean Water Act. There are remaining wetlands 
outside of the state and federal refuges that typically are in private 
ownership. However, these wetlands are struggling due to the lack of 
available and affordable water supplies and are at risk to selling out 
to the development of other uses for these native habitats. 
Unfortunately, Tulare Basin wetlands have, until very recently, been 
ignored by the large-scale wetland protection and enhancement efforts 
such as those in the Sacramento Valley and elsewhere in the San Joaquin 
Valley. This is one of those ``other water needs'' that the San Joaquin 
Valley Regional Water Plan has cataloged and is intending to address 
and to integrate into the solutions for the region's other water 
problems.
    The need to coordinate the diverse and at times parochial water 
interests of the San Joaquin Valley is clear. The need for new, 
integrated solutions to the region's water problems is even clearer. 
The leadership of the State in partnering with the San Joaquin Valley 
to address its water needs as well as the other economic needs of the 
region is finally happening and is poised to make a real difference. 
The federal government has a real interest to see that this most 
productive agricultural region of the Nation continues to flourish and 
to move to a position of sustainability in the management of its water 
resources. We are in unprecedented times where we are faced with 
population increases, drought, climate change, endangered species 
issues, major river restoration programs, and the desire to maintain a 
certain way of life, that necessitates the need for a well thought out, 
comprehensive regional water plan. The passage of H.R. 2498 and the 
funding of the continued development of the San Joaquin Valley Regional 
Water Plan would be tremendously helpful.
    In closing, let me extend my appreciation for the invitation to 
appear before the Committee today. I appreciate the efforts of our five 
local congressmen in sponsoring this legislation and for the 
Committee's consideration of its passage. Thank you.
                                 ______
                                 
    Mrs. McMorris Rodgers. OK. I would like to yield to my 
colleague, Representative Nunes, to do the introductions for 
the next bill.
    Mr. Nunes. Thank you. I would like to thank you for holding 
a hearing on this bill. Myself and Mr. Costa introduced this 
bill, and I will be very brief because we have a series of 
votes on the Floor, but then we will come back to hear the 
testimony n H.R. 2535.
    I first want to introduce two people who have spent a lot 
of time working on this, and one individual in particular is 
Alec Garfield, who has worked on this now I think for 30-40 
years, and he spent his whole lifetime dedicated to providing 
water for the Tule River Indian Tribe that is just on the 
eastern side of Tulare County, just east of Porterville.
    Mr. Garfield was born and raised on the reservation. He has 
spent most of his adult life involved with the political aspect 
of the Tule River Tribe. He has sat on the Tule River Tribal 
Council for 25 years and holds the longest tenure for tribal 
chairman. He is currently serving as the Director of Water 
Resources Department of Tule River Tribe as well as the 
Chairman of the Tule River Water Rights Negotiations Team. So I 
would really like to welcome Mr. Garfield here and I look 
forward to hearing his testimony when we get back.
    I also want to introduce Mr. Larson, who is a third-
generation citrus grower in the San Joaquin Valley downstream 
from the Tule River Indian Reservation. He is also President of 
the South Tule Independent Ditch Company, a company which 
supplies water to approximately 50 shareholders in the San 
Joaquin Valley. Mr. Larson has been working with members of the 
tribe since 1998 on this, and I know they have put a lot of 
effort into it.
    And I think just to be very brief, Madam Chairman, this is 
really an important bill. And I know that the Bureau is short 
of funds to deal with this, but what we are looking at here is 
an issue where Tule River does have rights to this water and 
they are willing to work with all the parties. They have all 
the parties within Tulare County to agree on this legislation 
as well as myself and Mr. Costa to introduce the bill. So I 
hope to avoid any type of lawsuit or any type of problem, that 
if we can move this bill forward, I think it would go a long 
way to solve a lot of problems ahead of time, be proactive 
instead of reactive.
    With that, we will be back shortly I guess. Thank you. I 
yield back.
    Mrs. Napolitano. Thank you. We are going to recess for 
votes, and we will return probably in 20 to 30 minutes. Thank 
you.
    [Recess.]
    Mrs. Napolitano. The Subcommittee will continue. The 
Ranking Member was unable to stay, so Mr. Nunes will be sitting 
in her stead when he returns.
    I would like to move on to the testimony on H.R. 2535, and 
the first witness on that is Mr. Alec Garfield, Director of 
Water Resources Department for the Tule River Tribal Council in 
Porterville, and welcome, sir, for your testimony, please.

     STATEMENT OF ALEC GARFIELD, DIRECTOR, WATER RESOURCES 
 DEPARTMENT, TULE RIVER TRIBAL COUNCIL, PORTERVILLE, CALIFORNIA

    Mr. Garfield. Good afternoon, Chairwoman Napolitano and 
Ranking Member McMorris Rodgers and all the members of the 
committee. My name is Alec Garfield. I am a member of the Tule 
River Tribe of Tulare County, California. I served on the 
Tribal Council for 25 years, 13 as its chairman. I have been 
working on the tribe's water rights since 1971. Currently, I 
serve as the Director of Water Resources Department of the Tule 
River Tribe as well as the Chairman of the Tule River Water 
Rights Negotiation Team.
    With me today is Ryan Garfield, Vice Chairman of the Tule 
River Tribal Council. I also bring greetings and best wishes 
from the Chairman, Neil Peyron, and members of our Tribal 
Council. I am grateful for this timely scheduling of this 
hearing on H.R. 2535, the Tule River Tribe Water Development 
Act. We appreciate the opportunity to appear before the Water 
and Power Subcommittee supporting H.R. 2535.
    The Tule River people are descendants of Yokut Indians, a 
large group of Native Americans who occupied Silicon Valley in 
California for thousands of years prior to contact with 
settlers. With the discovery of gold and California becoming a 
state in 1850, Congress refused to ratify 18 treaties 
negotiated with California tribes, including our treaty, the 
Treaty of Paint Creek of June 3, 1851.
    In 1856, a small reservation was established on prime San 
Joaquin Valley farmland in Tulare County. The location of this 
original reservation was purposefully selected by the Federal 
government to provide our tribe with good farmland and water 
resources necessary to establish a self-sufficient homeland for 
our people. Within a few years, however, this reservation was 
stolen from us under fraudulent circumstances by two Federal 
agents.
    In January 1873, President Grant issued an executive order 
creating a new reservation for the tribe. For over 125 years, 
we have lived on this reservation, which now includes 58,000 
acres of land. The reservation is located on the western slope 
of the Sierra Nevada Mountains, east of Porterville and lies 
almost entirely within the South Fork Tulare River Drainage 
Basin. Because of the failure of the United States to provide 
adequate water storage and irrigation facilities, we have been 
unable to reap benefits of agricultural homeland promised to us 
through the original 1856 reservation.
    H.R. 2535 authorizes funding necessary for the Secretary of 
the Interior to study the feasibility and suitability of 
constructing a storage reservoir, outlet works and a water 
delivery system for the tribe's reservation. H.R. 2535 is 
consistent with and carries out a critical part of the United 
States trust responsibility to Indian tribes to protect and 
advance and reserve water rights under the Winters Doctrine.
    For several years, the tribe has negotiated with our 
Federal negotiation team and local water interests represented 
by the Tule River Association and the South Tule Independent 
Ditch Company. Very recently the tribe and the local water 
users reached a settlement which has as its cornerstone the 
water storage project and delivery system, which will be 
investigated by H.R. 2535. This settlement is unique. It is one 
of the very few Indian water settlements ever achieved without 
a tribe or the United States first filing litigation to secure 
water rights.
    Our current water supplies consist of limited groundwater 
and springs. These sources have managed barely to serve the 
current needs of the tribal community on the reservation. There 
are growing concerns about the long-term reliability of our 
water supply.
    The South Fork Tule River has the potential to provide the 
tribe with long-term water supply, but the river is unreliable 
in its natural state. The hydrology of the South Fork is 
similar to most western rivers in that the flows are generally 
much higher in the spring months than the rest of the year. 
Over time too, the hydrology of the South Fork is marked by 
periods of drought, sometimes spanning several years.
    To address these issues, we have spent several years 
assessing our future water needs. We concluded the tribe could 
not meet its current or long-term water needs without the 
construction of at least one reservoir on the reservation. 
Given that our reservation sits at the headwaters of the South 
Fork Tule River, it made perfect sense to us to build a water 
storage project to capture part of the high flows of the river 
when downstream users were not diverting those flows. We 
approached the solution to our problem with the attitude we 
wanted to work with and not at odds with our downstream and 
non-Indian neighbors.
    After nine years of negotiations, we are very proud of the 
settlement agreement we have reached. It avoids the cost, 
delays and disruption of water rights litigation. The eventual 
construction of a water storage project will enable us to meet 
our domestic, commercial, municipal, industrial and 
agricultural needs without disrupting the current water uses of 
the South Fork Tule River.
    We are pleased to report to the Subcommittee that we have 
gained the endorsement of the National Congress of American 
Indians and the Southern California Tribal Chairmen's 
Association. We are disappointed that our Federal trustee is 
not joining us in securing a brighter future for the Tule River 
Tribe and its people by supporting H.R. 2535. This bill is the 
first step in enabling the tribe to bring water to our lands in 
sufficient quantities to make our reservation a viable homeland 
now and forever.
    I thank the Subcommittee for the opportunity to express the 
Tule River Tribe's support of H.R. 2535. In closing, I will ask 
that my testimony and supporting materials be made part of the 
record of this hearing. I or my associates would be more than 
happy to respond to any questions which members of the 
Subcommittee may have.
    [The prepared statement of Mr. Garfield follows:]

              Statement of Alec Garfield on behalf of the 
              Tule River Tribe of California, on H.R. 2535

Introduction
    Good morning Chairwoman Napolitano and Ranking Member McMorris-
Rodgers, and fellow members of the committee. My name is Alec Garfield, 
and I serve as the Director of the Water Resources Department of the 
Tule River Tribe, as well as the Chairman of the Tule River Water 
Rights Negotiation Team. I also send greetings and best wishes from 
Chairman Neil Peyron and all the members of the Tribal Council. We are 
very grateful for the expeditious scheduling of this hearing on H.R. 
2535, the Tule River Tribe Water Development Act. We also appreciate 
the opportunity to appear before the Water and Power Subcommittee of 
the House Natural Resources Committee to present testimony supporting 
H.R. 2535. This bill authorizes funding necessary for the Secretary of 
Interior to conduct a study on the feasibility and suitability of 
constructing a storage reservoir, outlet works and a water delivery 
system on the Tribe's Reservation in Tulare County, California. H.R. 
2535 is consistent with and an effectuation of the United State's trust 
responsibility to Indian tribes, to protect and advance their reserved 
water rights under the Winters doctrine. Winters v. United States, 207 
U.S. 564 (1908).
    For several years the Tribe has negotiated with the representatives 
of the Departments of Interior and Justice, including Interior's Bureau 
of Reclamation, and local water interests represented by the Tule River 
Association and the South Tule Independent Ditch Company. Very recently 
the Tribe and the local water users reached a settlement which embodies 
the shared goals and visions for the future of the community of parties 
who live together in the South Fork Tule River watershed. This 
settlement is quite unique--indeed, it is one of the very few Indian 
water settlements ever achieved without a Tribe or the United States on 
its behalf filing litigation to enforce its federal water rights. 
Despite this unique feature, once the settlement is fully carried out, 
the Tribe will join other Indian nations in the United States, by 
turning its ``paper'' federal reserved rights to water from the South 
Fork Tule River into actual ``wet'' water.
    We anticipate that this settlement agreement will also be 
considered in the forthcoming months for Congressional approval. The 
Tule River Water Development Act, under consideration by you today, is 
the first step in implementing that settlement agreement. We ask the 
Subcommittee to favorably and swiftly mark-up and pass H.R. 2535 on to 
the full Committee. Once enacted and signed into law, H.R. 2535 will 
enable the Tribe and its neighbors to complete the necessary technical 
background work to bring the final settlement agreement to life.
The Struggle of the Tule River Tribe to Secure a Sustainable Homeland
    Prior to discussing the terms of the bill, I would like to take a 
brief minute to educate the Subcommittee about the history of the Tule 
River Tribe and Reservation, to help illustrate the need for The Tule 
River Water Development Act in our community. I have also attached a 
two-page historical timeline which chronicles our efforts to secure a 
sustainable homeland with the necessary water supplies. (Exhibit A.)
    The Tule River Reservation is the homeland of the Tule River Tribe. 
We are descendants of the Yokuts Indians, a large group of 
linguistically-related people who occupied the San Joaquin Valley in 
California for thousands of years prior to contact with Euroamerican 
settlers. Following the discovery of gold, and California becoming a 
state in 1850, there was enormous pressure on Congress to reject the 18 
treaties negotiated with the several hundred Indian tribes found there. 
Congress relented to this pressure and in 1852 rejected these 18 
treaties, including the Treaty of Paint Creek of June 3, 1851, which 
included leaders from our Tribe. In 1853, however, Congress established 
the Superintendency of Indian Affairs in California, to relocate 
Indians to reservations. In 1856, the California Superintendency 
established our reservation pursuant to the 1853 authority, on 
approximately 2,240 acres of prime San Joaquin Valley farmland in 
Tulare County. The land was transected on the southwest corner by the 
mainstem of the Tule River. It included part of what is today the 
eastern portion of the City of Porterville. The location of this 
original Reservation was purposefully selected by the federal 
government to provide our Tribe with the arable land and water 
resources necessary to establish a self-sufficient homeland for its 
people. Upon being promised this land as our homeland--ostensibly 
forever--we built homes and began to actively cultivate crops. It was a 
relatively prosperous period of time for our people.
    Despite our relative prosperity in those years, two of the federal 
Indian agents assigned to reservations in the area nonetheless saw fit 
to capitalize upon the distance and ignorance of the Indian officials 
in Washington, D.C. Thomas Madden, a federal Indian agent assigned to 
the neighboring Tejon Indian Reservation, applied for and was issued a 
land patent under fraudulent circumstances to 1,280 acres of the Tule 
River Reservation land from the State of California. Four years later 
under a similar arrangement another land patent for 1,160 acres of Tule 
River Reservation land was issued to Mr. John Benson, another Indian 
Agent. These two state land grants encompassed all of our Reservation 
lands. The federal government was fully aware that these lands were 
expressly reserved to us, but it made no effort to challenge the Madden 
and Benson land grants. Because the lands had been set aside for the 
Tribe, the State of California, of course, had no legal basis upon 
which to issue the patents. The land transfers were also a violation of 
the federal Trade and Intercourse Acts, which expressly prohibited 
Indian agents from having ``any interest or concern in any trade with 
the Indians.'' Rather than setting aside the issuance of these patents, 
the federal government actually paid rent to Madden and Benson for at 
least a dozen years to enable my ancestors to continue farming what was 
in actuality our land.
    Gradually, over the years, hostility increased between the Indian 
farmers and the settlers in the area. In response to the tension, and 
rather than enforcing our rights to what should have been our 
Reservation land, in January 1873, President Grant issued an Executive 
Order creating a new reservation for the Tule River Tribe. It was 
comprised of mostly mountainous lands located about fifteen miles to 
the east of our original Reservation. The Tule River Indians and the 
Indian agent protested the removal; the new lands would be difficult to 
cultivate. The Indian agent, J.B. Vosburgh, stated ``The new 
reservation is not suited to the wants of the Indians for whose benefit 
it has been set apart, if the intention be, as heretofore, to teach 
them to become self supporting by means of agriculture, the soil of the 
reservation being insufficient both in quantity and quality for their 
need.'' He further requested that the government inquire into the 
legality of Madden and Benson land patents and, if necessary, requested 
the federal government to purchase the property from them for the 
benefit and use of the Indians. However, no such action was taken, and 
our people were forcibly removed away from their homes and cultivated 
fields.
    The removal was very hard on our people. The new Reservation, 
though it contained 48,000 acres, was determined by the federal agents, 
based on the knowledge and technology of the time, to have scarcely 100 
acres of arable land. Even that land was deemed by the agents to be of 
poor quality, and thought to be able to support only six families, far 
below the needs of our people. An Indian agent reported, ``Year by year 
our number has decreased by death and removal, until now there are only 
143 Indians, embraced in 30 different families, residing on the 
reservation.'' Our situation was so dire that, in response, President 
Grant, in October 1873--just 9 months after the initial Executive 
Order--signed another Executive Order almost doubling the Reservation's 
size to 91,837 acres. Again, very little of these additional lands were 
deemed by the federal agents to be suitable for agriculture, and the 
few acres which were proven arable were coveted or settled by settlers, 
and history again repeated itself. In August 1878, President Hays 
issued an Executive Order reducing the reservation back to the January 
1873 size.
    For over a century, then, we have lived on the Reservation 
established in 1873, a mountainous land where because of the failure of 
the United States to provide adequate water storage and irrigation 
facilities, we have been unable to fully reap the benefits of the 
agricultural homeland promised to us through the original 1856 
Reservation. The Tule River people are a proud people, and I tell this 
story not to complain or to blame anyone for these past injustices. 
They do, however, make a compelling argument that now is the time for 
the United States to help begin the healing process through the 
enactment of H.R. 2535. H.R. 2535 is the first step in enabling the 
Tribe to bring water to our lands in sufficient quantities to make our 
new homeland--not the one promised to us originally in the mid-19th 
Century--a viable homeland now and forever.
The Modern-Day Tule River Indian Reservation
    Today, our current Reservation includes about 58,000 acres. The 
reservation is located in south-central California, approximately 75 
miles south of Fresno and 45 miles north of Bakersfield in Tulare 
County. The Reservation is situated on the western slope of the Sierra 
Nevada Mountains, east of Porterville, and lies almost entirely within 
the South Fork Tule River drainage basin. The topography is generally 
steep, with elevations ranging from about 900 to 7500 feet above sea 
level. Most of the inhabited land is along the lower reach of the South 
Fork Tule River on the western side of the Reservation. The Reservation 
is drained by the South Fork Tule River. The South Fork Tule River 
flows into the Tule River at Success Reservoir, at a distance of about 
ten miles west of the Reservation. There are no significant uses of 
water upstream of the Reservation. (Exhibit B.)
    The estimated average annual flow of the South Fork Tule River at 
the western boundary of the Reservation is 38,500 acre-feet per year, 
with a probability of 24,600 acre-feet over 50% of the time, and 11,800 
acre-feet available over 80% of the time. Surface water supplies 
consist of the flow available from the South Fork Tule River and its 
tributaries on the Reservation, while underground supplies consist of a 
groundwater aquifer and springs. The groundwater sources have managed 
barely to serve the current needs of the Tribal community on the 
Reservation. There are growing concerns about the long-term reliability 
of these sources, both in terms of quantity and quality. The hydrology 
of the South Fork is similar to most western rivers in that the flows 
are generally much higher in the spring months than the rest of the 
year, other than occasional high water events following rainstorms. 
Over time, too, the hydrology of the South Fork is marked by periods of 
drought during which the entire flow of the river is significantly 
depressed by the lack of rain for long periods of time, sometimes 
spanning several years. These two general characteristics are depicted 
on the two graphs attached to this testimony. (Exhibit C.)
    The injustices and inequities of the past are still present and are 
still affecting our people. We have been plagued with unemployment and 
mortality rates substantially higher, and a standard of living 
substantially lower, than is experienced by the surrounding non-Indian 
communities. While the on-Reservation socio-economic conditions have 
improved over time, as recently as 1999 the estimated poverty rate on 
the Reservation was still 50% higher than Tulare County as a whole. To 
this day, the Reservation residents generally continue to suffer from a 
relatively low standard of living in substantial part due to the 
absence of an adequate and reliable potable water supply and system.

Contemporary Negotiations to Secure a Reliable Source of Water for the 
        Tribe
    To address the inter-related issues of lack of water and resulting 
economic, political and social limitations facing the Tribe, we have 
spent several years assessing its future water needs for domestic, 
commercial, municipal, industrial and agricultural purposes. We 
concluded that, in view of existing uses downstream of the Reservation, 
the Tribe could not meet its water needs, especially over the long-
term, without the construction of a reservoir or reservoirs on the 
Reservation. Given that our Reservation sits at the headwaters of the 
South Fork Tule River, it made perfect sense to us to build a water 
storage project to capture the high flows of the river when downstream 
users were not capturing or using those flows.
    We approached the solutions to our problems with the attitude that 
we wanted to work with, and not at odds with, our downstream non-Indian 
neighbors. Too often--in the more typical situation where a general 
stream adjudication is commenced in a given state--the Indian and non-
Indian interests are pitted against one another. Here, by reaching out 
to our neighbors with the intent of respecting their needs and looking 
for solutions to our own, we were able to avoid the costs, delays and 
disruptions of water rights litigation. We entered into negotiations 
with interested parties seeking to establish the Tribe's reserved water 
rights through an agreement settling our federal reserved water rights 
claims.
    For nine years, the settling parties have diligently negotiated the 
terms of a settlement agreement which, upon Congressional approval, 
will finally establish the federally reserved water rights of the Tule 
River Tribe. The negotiations have been very productive. The settling 
parties have been able to reach an agreement-in-principle on all major 
issues, including the magnitude of the Tribe's reserved water right, 
the Tribe's rights to use water both on and off the Reservation, and 
the operation rules of on-Reservation storage reservoirs, including the 
near-term Phase I Reservoir primarily intended to serve municipal and 
domestic water needs. We are very proud of the settlement agreement we 
have reached, which allows the South Fork Tule River water users to 
continue their historic uses while providing the Tribe with a firm 
water supply, primarily for its domestic, commercial and municipal 
needs.
    The remaining major issue prior to submitting the agreement to 
Congress is securing the support of the Department of the Interior, and 
the Administration, to authorize and fund the construction, operation 
and maintenance facilities anticipated by the settlement agreement and 
to compensate the Tribe for releasing water related claims against the 
United States.

H.R. 2535 Lays the Foundation for Moving Forward With the Settlement of 
        the Tule River Indian Tribe's Water Rights
    Moving to the terms of the bill under consideration today, H.R. 
2535 authorizes the Secretary of Interior to conduct a study on the 
feasibility and suitability of constructing a storage reservoir, outlet 
works, and delivery system on the reservation. H.R. 2535 also 
authorizes the appropriation of $3 million to the Bureau of Reclamation 
to fund the study. The storage facility feasibility study is the most 
recent step in a several-decades-long effort by the Tribe to secure 
both title to and quantification of its federal reserved water rights, 
and to actually deliver ``wet'' water to our members for domestic, 
agricultural, municipal, commercial and industrial purposes. Notably, 
the eventual construction of a water storage project will enable us to 
meet our needs without disrupting the current water uses of the South 
Tule River.
    As part of our lengthy and detailed negotiations with our neighbors 
and with the United States spanning the past decade, we have 
commissioned technical studies of the South Fork Tule River watershed 
within our Reservation boundaries. This analysis by the firm of Natural 
Resources Consulting Engineers of Ft. Collins, Colorado and Oakland, 
California, led us to the present site of a proposed water storage 
project at the confluence of Cedar Creek and the mainstem of the South 
Fork Tule River. The site of the proposed project, and the existing and 
proposed expansion to the Tribe's water service area, are depicted on 
the map marked as Exhibit D.
    In short, the analysis we have commissioned to date, while rigorous 
and thorough, is not sufficiently detailed to support and justify a 
final decision to authorize and appropriate federal funds from which to 
initiate actual construction activities. Thus, the authority and 
funding delivered through H.R. 2535 would enable the Tribe, acting in 
concert with the Department of the Interior and its Bureau of 
Reclamation, to ensure that this Cedar Creek site is the optimal site 
at which to build the project.
    We are pleased to report to the Subcommittee that we have gained 
the endorsement of the National Congress of American Indians and the 
Southern California Tribal Chairman's Association, for the enactment of 
H.R. 2535. Copies of the resolutions of these organizations are also 
attached to my testimony to be made a part of the record. (Exhibits E 
and F.) We have also provided the Subcommittee with letters and 
resolutions of support from the City of Porterville, CA; the Tulare 
County, CA Board of Supervisors, the Tule River Association and the 
South Tule Irrigation Ditch Company, and we believe these documents are 
being made a part of the record of this hearing.

Conclusion
    It is now time for our federal partners to join us in securing a 
brighter future for the Tule River Tribe and its people by supporting 
H.R. 2535. I thank the Subcommittee for the opportunity to express the 
Tule River Tribe's support of H.R. 2535.
    In closing, I would ask that my testimony and supporting materials 
be made a part of the record of this hearing by unanimous consent.
    I, or my associates here at the witness table with me, would be 
happy to respond to any questions which the members of the Subcommittee 
might have.
                                 ______
                                 
    Ms. Nunes. Thank you, Mr. Garfield.
    Next, we have Mr. Larson, President of the South Tule 
Independent Ditch Company of Porterville, California. Welcome.

    STATEMENT OF PHILIP GREGG LARSON, PRESIDENT, SOUTH TULE 
       INDEPENDENT DITCH COMPANY, PORTERVILLE, CALIFORNIA

    Mr. Larson. Good afternoon, Madam Chairwoman and 
Subcommittee members. It is a pleasure to be here to be able to 
share this information with you.
    My name is Phil Larson. I am a third-generation citrus 
grower in the area of Success Valley, which is a community 
downstream from the Tule River Indian Reservation near the city 
of Porterville. I am also President of the South Tule 
Independent Ditch Company, a nonprofit mutual water company 
which supplies water to approximately 50 shareholders in 
Success Valley by means of a 10-mile-long irrigation ditch.
    I am here today to speak in support of H.R. 2535 and to 
inform the Subcommittee as to the progress, the successful 
progress of nearly 10 years of water rights negotiations with 
the Tule River Tribe.
    South Tule Independent Ditch Company diverts its water from 
the South Fork of the Tule River approximately a half-mile 
downstream from the reservation's western boundary. The ditch 
company claims rights to water from this fork of the river 
dating to 1854. These water rights were adjudicated and fixed 
by a judgment of the Superior Court of Tulare County in the 
case of Popular Irrigation Company v. A.A. Howard, et al., in 
1916. This right was established as 10 cubic feet per second 
under most circumstances. However, during a typical irrigation 
season, the South Fork's total flow is often much less. Also, 
the tribe was not a member to the 1916 case.
    In 1922, the Secretary of the Interior of the United States 
representing the tribe and South Tule Independent Ditch Company 
entered into an agreement which was intended to definitely fix 
for all times the respective water rights of the tribe and the 
ditch company. This agreement established a proportional 
sharing of available water basically on a 3-to-1 ratio in favor 
of the ditch company. It did not quantify the Federally 
reserved water right of the reservation nor address the tribe's 
right to water storage. It did recognize that South Tule 
Independent Ditch Company's water rights were initiated at 
various times between the years 1854 and 1872.
    I have found no evidence that the United States considered 
the water rights of the reservation at the time of its 
establishment in 1873. The government also failed to consider 
apparently or evaluate the pre-1873 priority claims of other 
water users which would be superior to the Federally reserved 
water rights of the reservation.
    It is with this history along with the limited seasonal 
flows of the South Fork of the Tule River that prompted the 
tribe to request formal water rights negotiations with the 
downstream water users in an effort to quantify their water 
rights for their current and future needs.
    Since March of 1998, representatives of the tribe, South 
Tule Independent Ditch Company, the Tule River Association, 
riparian users and various governmental stakeholders have been 
meeting to negotiate an amicable solution to the multiple 
demands for the limited waters of the South Fork of the Tule 
River.
    An agreement in principle has been reached among the 
primary water users. The agreement is far more than just a 
handshake. It is already drafted in its final form, and we 
expect it to be signed within 30 days. This water agreement was 
written with the intent of the parties that the water 
allocations of the 1922 agreement continue to be fulfilled. 
This would be accomplished through the construction of a water 
storage facility and distribution system on the reservation 
which would in simple terms capture winter and spring high 
water flows for use by the tribe and require the flow-through 
of the lesser summer and fall river flows.
    I and the Board of Directors of South Tule Independent 
Ditch Company have concluded that the agreement and the tribe's 
proposed water storage facility is the only practicable 
solution that will provide the tribe with a sustainable supply 
of water. We therefore encourage your support and a favorable 
vote for H.R. 2535 to provide funding for the feasibility study 
for the tribe's water storage and distribution system.
    I would also like to point out on the chart over here just 
how limited the flow is on that fork of the Tule River during 
the summer and fall months of the year. It gets at times near 
zero, if not zero, so it is imperative that water storage be 
considered as the only practicable solution.
    [The prepared statement of Mr. Larson follows:]

Statement of Philip G. Larson, President, South Tule Independent Ditch 
             Company, Porterville, California, on H.R. 2535

    Good Morning.
    My name is Phil Larson. I am a third generation citrus grower in 
Success Valley, an area downstream from the Tule River Indian 
Reservation near the city of Porterville, California. I am also 
President of South Tule Independent Ditch Company, a mutual water 
company which supplies water to approximately 50 shareholders in 
Success Valley by means of a 10-mile long irrigation ditch. I am here 
today to speak in support of H.R. 2535 and to inform the Subcommittee 
on Water and Power as to progress of nearly 10 years of water rights 
negotiations with the Tule River Tribe.
    South Tule Independent Ditch Company diverts its water from the 
South Fork of the Tule River approximately a half mile outside the 
Reservation's western boundary. The ditch company claims rights to 
water from this fork of the river dating to 1854. These water rights 
were adjudicated and fixed by a judgment of the Superior Court of 
Tulare County in the case of Poplar Irrigation Company vs. A.A. Howard, 
et al., in 1916. Said right was established as 10 cubic feet per second 
under most circumstances. However, during the typical irrigation 
season, the South Fork's total flow is often much less. The Tribe was 
not a party to this 1916 case.
    In 1922, the Secretary of the Interior of the United States, 
representing the Tribe, and South Tule Independent Ditch Company 
entered into an agreement which was intended to definitely fix for all 
times the respective water rights of the Tribe and the ditch company. 
This agreement established a proportional sharing of the available 
water between these two entities. It did not quantify the federally 
reserved water right of the Reservation, nor address the Tribe's right 
to water storage. It did recognize that South Tule Independent Ditch 
Company's water rights were initiated at various times between the 
years 1854 and 1872.
    I have found no evidence that the United States considered the 
water rights of the Reservation at the time of its establishment in 
1873. The Government also apparently failed to consider or evaluate the 
pre-1873 priority claims of other water users which would be superior 
to the federally reserved water rights of the Reservation.
    It is with this history, along with the limited and seasonal flows 
of the South Fork Tule River, that prompted the Tribe to request formal 
water rights negotiations with the downstream water users in an effort 
to quantify their water rights for the current and future needs of the 
Tribe.
    Since March 1998, representatives of the Tribe, South Tule 
Independent Ditch Company, the Tule River Association, riparian users, 
and various governmental stake holders, have been meeting to negotiate 
an amicable solution to the multiple demands for the limited waters of 
the South Fork Tule River.
    An agreement-in-principle has been reached among the primary water 
users. It is the intent of the parties that the water allocation 
agreements memorialized in the 1922 Agreement continue to be fulfilled. 
This would be accomplished through the construction of a water storage 
facility and distribution system on the Reservation which would, in 
simple terms, capture winter and spring high water flows for use by the 
Tribe and require the flow-through of the lesser summer and fall river 
flows.
    I and the Board of Directors of South Tule Independent Ditch 
Company have concluded that the agreement-in-principle and the Tribe's 
proposed water storage facility is the only practicable solution which 
will provide the Tribe with a sustainable supply of water. We therefore 
encourage your support and favorable vote for H.R. 2535, to provide 
funding for the feasibility study for the Tribe's water storage and 
distribution system.
    Thank you.
                                 ______
                                 
    Mr. Nunes. Could you explain that chart?
    Mr. Larson. Certainly. That chart is an average water flow 
of the South Fork of the Tule River, and I don't know if you 
can see the dates at the bottom of the chart, but from about 
August through November, the water flow is very minor and 
oftentimes zero if it is a dry year. That chart I think clearly 
illustrates the requirement for water storage. Absent water 
storage, there is insufficient water supply for either the 
tribe or the other uses on this stream of the river.
    Mr. Nunes. Thank you for your testimony, Mr. Larson.
    Mr. Larson. You are welcome. Thank you for the opportunity.
    Mr. Nunes. Next, we have Mr. Quint from the Bureau of 
Reclamation.

   STATEMENT OF ROBERT QUINT, ACTING DEPUTY COMMISSIONER FOR 
      OPERATIONS, BUREAU OF RECLAMATION, WASHINGTON, D.C.

    Mr. Quint. Thank you. I am actually going to provide 
testimony on both the bills if that is OK. I am here to provide 
testimony on H.R. 2498 and H.R. 2535.
    H.R. 2498 would direct Reclamation to provide a grant to 
the California Water Institute located in Cal State, Fresno, to 
conduct a study and create a regional water management plan. 
The plan would look at water quality, supply, conveyance and 
reliability, flood control, water resource-related 
environmental enhancement and population growth.
    While we acknowledge the need for integrated planning by 
local communities and do support the intent of the bill, we 
have a couple of concerns and are unable to support the bill at 
this time.
    First, the bill raises budgetary concerns which we have 
discussed earlier because it directs Reclamation to issue a $1 
million grant without reference to a necessary appropriation. 
This would continue to strain Reclamation's limited budget.
    In addition, the bill requires that Reclamation assure that 
the grant recipient submit a report to Congress within two 
years without a clear means for Reclamation to ensure that this 
directive is met.
    On H.R. 2535, that would authorize $3 million for a 
feasibility study to look at the construction of a storage 
reservoir, outlet works and delivery system for the Tule River 
Tribe in California. As envisioned, the storage facility would 
provide water supply for domestic, municipal, industrial and 
agricultural purposes.
    The administration feels that this legislation is premature 
and cannot support H.R. 2535 at this time. Currently, 
settlement negotiations are ongoing and not all issues related 
to the Federal participation have been fully resolved. The 
outcome of these negotiations may affect the scope, schedule 
and cost of the feasibility study that is proposed in the 
legislation. In addition, the legislation does not specify a 
local cost share for the authorized study. Because of the 
budgetary concerns and timing, the administration is unable to 
support this feasibility authorization.
    This concludes my verbal remarks, and I would be happy to 
answer any questions.
    [The prepared statements of Mr. Quint follow:]

        Statement of Robert Quint, Acting Deputy Commissioner, 
  Bureau of Reclamation, U.S. Department of the Interior, on H.R. 2498

    Madam Chairwoman and Members of the Subcommittee, I am Robert 
Quint, Acting Deputy Commissioner of the Bureau of Reclamation. I am 
pleased to be here today to provide the Department of the Interior's 
views on H.R. 2498, a bill to authorize a study on coordinating and 
integrating sub-regional interrelated regional water management plans 
into a unified integrated plan in the San Joaquin River and Tulare Lake 
Hydrologic Regions in the San Joaquin Valley of California.
    Ongoing activities in Reclamation's Central Valley Project in 
California are currently addressing the need targeted by this proposed 
study. Furthermore, the legislation does not identify a Reclamation 
funding source for the study and without an additional appropriation, 
it would be drawn from other existing programs, compromising that work. 
As such, the Administration does not support H.R. 2498 at this time.
    This legislation would direct the Secretary of the Interior, acting 
through the Bureau of Reclamation, to award a grant to the California 
Water Institute, not later than 120 days after the date of the 
enactment of this Act. The Institute would prepare an Integrated 
Regional Water Management Plan (Plan) for the eight counties 
encompassed by the two hydrologic basins that would address issues 
related to water quality, water supply (both surface and groundwater 
banking, and brackish water desalination), water conveyance, water 
reliability, flood control, water resource-related environmental 
enhancement, and population growth.
    H.R. 2498 also directs the Secretary to ensure that a report 
containing the results of the Plan is submitted to this Committee and 
the Senate Committee on Energy and Natural Resources not later than 24 
months after the grant is awarded and authorizes the appropriation of 
$1 million to carry out the Act.
    There are many water supply issues in the San Joaquin Valley and 
many of these issues have a Federal nexus. It is important for local 
communities to evaluate and address the future needs and find solutions 
for potential shortfalls. Through the existing Acts authorizing various 
units and divisions of the Central Valley Project, Reclamation is 
already actively working on issues that could be evaluated by the Plan. 
These issues include water quality and supply, surface and groundwater 
banking, water conveyance, water reliability, flood control, and water 
resource-related environmental enhancement.
    Reclamation has concerns about the budget impact of H.R. 2498. H.R. 
2498 also does not identify a specific Reclamation program or activity 
responsible for the Institute's grant. Potential sources include 
CALFED, Upper San Joaquin River Basin Storage Investigation, San 
Joaquin River Restoration Program, San Luis Unit Drainage, and the 
Salinity and Boron Total Maximum Daily Load on the Lower San Joaquin 
River.
    In addition, the legislation does not specify actions Reclamation 
should take to ensure that the Institute submits a report to Congress 
within the 24-month timeframe referenced in the bill.
    That concludes my prepared remarks. I would be pleased to answer 
any questions.
                                 ______
                                 

        Statement of Robert Quint, Acting Deputy Commissioner, 
  Bureau of Reclamation, U.S. Department of the Interior, on H.R. 2535

    Madam Chairwoman and Members of the Subcommittee, I am Robert 
Quint, Acting Deputy Commissioner of the Bureau of Reclamation. I am 
pleased to be here today to provide the Department of the Interior's 
views on H.R. 2535, the Tule River Tribe Water Development Act. Due to 
ongoing settlement negotiations with Tule River Tribe as well as the 
need for a complete appraisal level study to precede a feasibility 
authorization, the Administration feels that it is premature to 
authorize this study and cannot support H.R. 2535 at this time.
    This legislation would direct the Secretary of the Interior ``to 
conduct a study on the feasibility and suitability of constructing a 
storage reservoir, outlet works, and a delivery system for the Tule 
River Indian Tribe of California to provide a water supply for 
domestic, municipal, industrial, and agricultural purposes, and for 
other purposes.'' The Act would authorize $3 million for Reclamation to 
conduct a feasibility study to be completed within 2 years after funds 
are appropriated or the signing of a reserved water rights settlement 
agreement by the Tule River Tribe and other settling water users, 
whichever is later. Without a completed appraisal level study, it is 
premature to authorize this study. The authorization of $3 million for 
this study would further compete with the funding needs of other 
already authorized projects. Additionally, the legislation does not 
specify a local cost share for the authorized study.
    Settlement agreement negotiations have been taking place for 
several years between the Tribe, downstream water users, and the 
Federal negotiation team regarding the Tribe's federally reserved water 
rights. These negotiations are ongoing and not all issues have been 
resolved, including issues relating to Federal contribution. Until the 
Administration has completed its analysis of the proposed settlement 
under the Criteria and Procedures for the Participation of the Federal 
Government in Negotiations for the Settlement of Indian Water Rights 
Claims (``Criteria'') (55 Fed. Reg. 9223 (1990)), which are the 
framework we use to evaluate settlements, it is premature to take a 
position upon the scope, schedule, and cost of the feasibility study 
that is proposed in this legislation. An appraisal level study is also 
a necessary part of the process; Reclamation generally requires 
completion of an appraisal level study before considering whether the 
project warrants continuing to a feasibility-level analysis. 
Reclamation understands that the Tribe has conducted a substantial 
amount of reconnaissance/appraisal-level technical, planning, and 
environmental work over the past decade; however, Reclamation has not 
reviewed these documents nor determined that they would fulfill the 
requirements for an appraisal study.
    Typically, a feasibility study of this size and shape and National 
Environmental Policy Act compliance takes from 3 to 5 years to complete 
with significant costs. Actual costs for this study would be determined 
via a Plan of Study, which would be developed after study authorization 
and appropriations are provided. The time and cost to complete the 
feasibility study and environmental documentation for the Tule River 
Tribe Water Development Project could be shortened if the Tribe's 
technical and environmental analyses and documentation are sufficient 
and compatible with Federal requirements. The costs of a feasibility 
study are significant and may exceed the $3 million authorization in 
this bill.
    Reclamation understands the importance of a reliable water supply 
and will continue to work with the Tribe toward this goal in addressing 
the issues described above.
    That concludes my prepared remarks. I would be pleased to answer 
any questions.
                                 ______
                                 
    Mr. Nunes. Thank you, Mr. Quint. At this time, I think we 
will proceed with questions. Are you going to go first, Mrs. 
Napolitano?
    Mrs. Napolitano. You are there. Go ahead.
    Mr. Nunes. OK. Well, thank you. All right.
    I think we have Mr. Costa's bill, questions on it too, but 
first I want to thank Mr. Garfield for being here today. Mr. 
Garfield, could you just testify before the committee on what 
happens when those flows drop like that? Where does the tribe 
have to go to get their water?
    Mr. Garfield. At this time, we have about maybe six wells 
that serve the reservation community. Every one of those are 
working during the summer months. We also have one spring that 
we utilize during the year. But sometimes on a very hot summer, 
we have to get water from the South Fork Tule River. We just 
concluded putting in an expansion to our water treatment 
facility and are getting water from the South Fork, but just a 
matter of years ago, our wells weren't sufficient in supplying 
water to the community, and we were out of water during the 
summer months.
    Mr. Nunes. And so you had to truck the water to the 
reservation?
    Mr. Garfield. We had to truck the water and some individual 
families had to buy their water themselves.
    Mr. Nunes. Just for drinking?
    Mr. Garfield. Yes.
    Mr. Nunes. Yes. Madam Chairwoman, I think it is important 
to note that this tribe during certain times of the year runs 
out of the water, and so that is why this is so important, 
because they do have the rights to the water. They could have 
gone the route of the court system, but they have decided not 
to. They work with all the agencies.
    I would like to call on Mr. Larson to just comment on how 
it has been to work with the tribe, where you think you are at 
this point in terms of finishing the agreement and what you are 
waiting for.
    Mr. Larson. Thank you. Actually, the process has been a 
nearly 10-year process. We came together with some apprehension 
as to if we were going to be litigating issues, but we came 
together as a community. We have a common problem. The problem 
is the limited water supply. We have competing interests in 
that, but we came together for a solution.
    That stream flow constitutes the life blood of our 
communities, and our communities, our neighbors, so essentially 
we are the same community under different hats you might say, 
but the process has been successful. The water users, including 
Tule River Association, which is the water users downstream 
from Success Reservoir, agree. I think you have a letter to 
that statement that they are in support of this finding and 
that the agreement is ready for final ratification by the 
various boards to put a signature page on it and it is ready to 
go. So we are that close with respect to the agreement itself.
    Mr. Nunes. Thank you, Mr. Larson.
    So, Mr. Quint, you have heard the testimony of Mr. Garfield 
and Mr. Larson. They have been working very closely with you. 
They basically say that all that is left is to cross the t's 
and dot the i's. What is the holdup from the Bureau's point of 
view and what are the outstanding concerns? I think it is 
important to lay those out before the committee so that these 
gentlemen can figure out what those concerns are and address 
those concerns so that the Bureau would then be supportive of 
this language.
    Mr. Quint. Let me address that. The department has a 
process they go through for all Indian water rights settlement. 
This is one of 19 the department is currently working on, and 
once this settlement is all put together, an assessment team 
does a report. That report then goes through a criteria and 
procedures process for review by the Indian Water Rights 
Settlement Office. That then needs to be approved by the 
department. Then that has to go to OMB for approval. So all 
those processes need to take place to make sure that this 
project is what it needs to be. Also during that process, that 
will determine the appropriate Federal role in this overall 
settlement.
    Mr. Nunes. So I don't know all 19 different tribes that 
have these issues, but in this case, it seems to be that 
everyone agrees that the problem needs to be solved. They have 
worked with all the surrounding community, proper community 
agencies that need to approve this and are essentially just 
waiting on the Bureau. So I would hope that you could somehow 
speed the process up. I mean, this has been a long time in the 
works.
    Mr. Quint. And we have been involved in the process all the 
way through and will continue to work with the entities to move 
this as quickly as we can.
    Mr. Nunes. So in OMB, who in OMB brought up concerns with 
this?
    Mr. Quint. Nobody has yet because OMB has not been involved 
in this at this point. It is our process for getting 
settlements approved. It requires that we go to OMB to get 
their input and review of those.
    Mr. Nunes. So how much more time do you think it will be?
    Mr. Quint. I can't give you a specific time because all 
these vary depending upon the complexity of the problem and 
where it is, priority and reviews. Typically, these things can 
take several months, though, to get through that process.
    Mr. Nunes. Well, hopefully several months is better than 
several years.
    Just one more question. In those 19, who is the priority? 
How do you decide who the number one priority is?
    Mr. Quint. I don't have that information with me, but I 
would be glad to submit that information for the record.
    Mr. Nunes. OK. Thank you. I yield back, Madam Chairwoman.
    Mrs. Napolitano. Thank you. Mr. Costa.
    Mr. Costa. Yes. Mr. Garfield, how would you describe 
economic conditions facing the Tule Tribe? I know that 
Congressman Nunes does a great job in representing your issues 
and is concerned about the long-term viability of the tribe. 
But if you could give a little descriptive of the current 
economic conditions you are facing.
    Mr. Garfield. One of the big concerns of the Tribal Council 
over the years has been employment opportunities for the 
members of the tribe.
    Mr. Costa. Your unemployment level is?
    Mr. Garfield. At this time, I would say it is probably 
around 40 to 45 percent. The tribe currently has a small casino 
on the reservation, which is about maybe 20 miles east of 
Porterville. We also have an Economic Development Corporation 
at the City of Porterville's airport. We have 40 acres there 
that we are trying to develop. We have a small airplane 
facility there that we are trying to currently license as a 
charter service for the community.
    But I think that part of the problem that we have also is 
in our planning process, a lot of things that we want to do we 
need water to do, and without knowing how much water we have or 
can plan on, that certainly puts a damper on our planning 
process.
    Mr. Costa. Those below the poverty line, what is your 
current number that you use that make up the tribe?
    Mr. Garfield. The tribal membership I believe is probably 
1,588 at this time, which includes all men and women and 
children.
    Mr. Costa. And those below the poverty line?
    Mr. Garfield. Those below the poverty line, I would say 
around 50 percent.
    Mr. Costa. So obviously the economic conditions facing the 
tribe, it has a long history. Your efforts to try to improve 
the opportunities for future tribe members is really contingent 
in large part to this proposal providing sufficient water over 
the long term to sustain the other economic activities for the 
tribe.
    Mr. Garfield. That is correct. We currently have about a 
200-member waiting list for homes on the reservation.
    Mr. Costa. But you can't build them without water.
    Mr. Garfield. Correct.
    Mr. Costa. Very good. Mr. Quint, I just want to make 
reference to your testimony on both bills. It indicates to me, 
frankly, that there needs to be a better communication, and the 
Chairwoman spoke of that earlier in her comments with regards 
to the Bureau's testimony on all three bills today, but I know 
reference to other legislation. I can understand where you may 
support in concept or understand the need.
    Actually, I believe you have been involved in this effort 
on the regional study plan as it relates to the San Joaquin 
Valley, and you have been both at the regional level and 
understand the importance of it. What you are saying is that 
you would like the language to have 120 days after 
appropriations, not authorization, because you want to have the 
money to further see them continue your efforts with the 
legislation, is that correct?
    Mr. Quint. Yes.
    Mr. Costa. OK. Well, again, I think the Chairwoman's 
comment earlier on that if you don't ask for our support 
financially, it makes it awful difficult for us to give it. And 
we need to, I think, have better communication as it relates to 
assessing the challenges we face, whether it is three pieces of 
legislation we are talking about today or whether it is other 
efforts that are ongoing that involve the Bureau's 
jurisdiction. Clearly, water we all understand is the life 
blood of mankind, and nowhere is that more critically faced 
than in the West. So we need your focus, we need your support. 
My time has expired.
    Mrs. Napolitano. Thank you, Mr. Costa. I think we might be 
going a second round, so you might want to start thinking of 
something else because I have questions, and I would like to 
start with my favorite, Bureau of Reclamation.
    Mr. Quint, is it necessary for the Secretary to support the 
proposed settlement in the Tule River situation simply to do 
the study, and can you tell us how this compares with other 
studies the Bureau has done and the cost-share for them and can 
they afford it?
    Mr. Quint. Could you state the question again?
    Mrs. Napolitano. Is it necessary for the Secretary to 
support a proposed settlement in the Tule River situation 
simply to do the study, and how does that compare to the 
studies previously done by the Bureau and the typical cost-
share for this feasibility study, and do you think the tribe 
could afford it?
    Mr. Quint. Let me try to address as much of that as I can. 
Typically, the Secretary has responsibility for approval of 
settlement agreements throughout the process. Whether that 
settlement is necessary to be signed before a feasibility study 
can be done, not always, but since there are still some 
outstanding issues about what the responsibility and liability 
of the Federal government is in this case, we feel it is 
premature to authorize this feasibility study until some of 
those issues are sorted out.
    Mrs. Napolitano. You haven't done other studies with this 
amount of work already done on them?
    Mr. Quint. We have done some. I don't have all the details 
of those obviously in front of me, and I know the tribe and the 
team have done a number of studies, maybe appraisal level is 
what we refer to them as, already as part of this. We haven't 
had an opportunity to review those at this point in time, but 
we would be glad to work with the tribe and with the other 
stakeholders out there to look at that data and see how close 
we are to being able to go forward with a feasibility study.
    Mrs. Napolitano. And that is a commitment?
    Mr. Quint. Absolutely.
    Mrs. Napolitano. Mr. Garfield, your response?
    Mr. Garfield. Thank you, Madam Chairwoman.
    I think that, first of all, the Office of Management and 
Budget does not have to approve the settlement agreement as we 
try to move forward on this project.
    Second, I think the Bureau of Reclamation mentioned earlier 
that this event here has not been followed as per the criteria 
and procedures. The Chairman of the Federal Negotiating Team at 
that time was Mr. Chris Kenney. He was the Chairman of the team 
throughout most of that period, and Mr. Kenney was also 
involved in writing those criterion procedures. He is also here 
with me today as a technical witness on behalf of the tribe 
should the committee like to hear from this person.
    Mrs. Napolitano. I think that would help this committee to 
be able to address it, because my next question to Mr. Quint 
was what is the process in which these settlements are approved 
by the Federal team, and explain the criteria and procedures 
for which the settlement is being analyzed.
    Mr. Kenney, would you step up?
    Mr. Kenney. Thank you, Madam Chairwoman.
    Mrs. Napolitano. Would you identify yourself, sir, please, 
for the record? Identify yourself.
    Mr. Kenney. My name is Chris Kenney. I am retired from the 
Federal government as of January 2007. Prior to that time, I 
was the departmentally appointed Chairman of the Federal 
negotiation team which involved representatives from the Bureau 
of Indian Affairs, the Department of Justice and in this case 
the Bureau of Reclamation.
    I think the best way to approach this question, Mr. Quint I 
think is substantially correct in his statement that the 
criteria and procedures which were a policy that was 
established by the department in 1990 was a set of criteria and 
a structure by which the Office of Management and Budget and 
the Department of Interior and the Department of Justice could 
evaluate and take a look at water rights negotiations, any 
water rights negotiations, and how to evaluate those. They were 
guidelines that would allow all three agencies to be able to 
have one common language in approaching all the many varied 
activities that are involved in any water rights negotiation.
    I would take issue with the fact that the criteria and 
procedures are applied after the negotiations are done. Quite 
the contrary. Criteria and procedures were established to give 
guidance to the teams in the field so that they would 
understand the arena and the structures within which they were 
to negotiate these settlements.
    So I would submit to the Subcommittee that, while the 
administration has yet to finish its analysis under criteria 
and procedures, as the negotiation team was going forward, they 
were mindful of the criteria and procedures and how those would 
be applied as the administration took a look at the settlement.
    Those criteria and procedures have lots of issues and 
elements in them, but foremost is the appropriateness of a 
negotiated settlement, which usually is identified when the 
department decides to put a team in the field. These include 
whether all the parties that we believe are appropriate to the 
settlement are at the table so that we know we have all the 
people that have equities involved available. Also, the 
criteria and procedures set up equitable ways to take a look at 
how the settlement is going to benefit the tribe and how it is 
going to resolve a lot of the problems in the basin.
    In my opinion, I think that the settlement agreement that 
has been finished to date does that and is in a position to 
serve the needs of all the water users in the basin. I think it 
is appropriate that the administration take a look at the 
settlement and tell us what they think. It is time for them to 
do that because most of the issues have been resolved.
    One of the reasons that the tribe and South Tule Ditch 
would like to see this bill and the monies to do the 
feasibility study was that this negotiation had less resources 
available to it than many of the other negotiations because of 
its size, and we know that the Congress is going to ask for 
details about the facilities and the arrangements and the 
structure of the settlement and how it is going to work.
    In order for the tribe and even the administration to be 
able to answer those questions, we need resources to evaluate 
those issues so that you will have the answers that you request 
because the administration is going to require as much detail 
in its evaluation as the Congress I am sure will ask for. 
Unless the tribe and the local parties have those resources to 
do that study, you are not going to be able to get the kind of 
detail that you need to answer the questions that you have.
    Mrs. Napolitano. So it sounds like a Catch-22 boiling down 
to money.
    Mr. Kenney. It is the United States Federal Government.
    [Laughter.]
    Mrs. Napolitano. Thank you for your honest answer, sir, and 
I would like to ask a further question that you might possibly 
have some answers to, and that is, the Bureau has been dealing 
with this issue for how long?
    Mr. Kenney. This specific issue? I think it is appropriate 
to say the Bureau has been with this negotiation from the very 
beginning. I think it is important to understand that the 
Bureau was there as one of the resources that the Secretary of 
the Interior has. The Secretary of Interior is charged with 
trust responsibility to the tribes. The Secretary has a number 
of resources available, including the Bureau of Indian Affairs, 
but he also has a substantial technical resource in the Bureau 
of Reclamation. And when the Secretary thinks that that is an 
appropriate resource to apply, then the Secretary uses those 
resources.
    So we have used Reclamation's expertise from the very 
beginning in a lot of the technical work that we have done. It 
is also true that as resources become available, the Bureau of 
Indian Affairs would provide as much resources as they could to 
the tribes, but I am sure the Chairwoman knows that the Bureau 
of Indian Affairs has a very broad mandate with Indian Country 
and sometimes those resources are just not available. So the 
Bureau of Reclamation is trying to do what the Secretary asks 
them to do.
    Mrs. Napolitano. And I was looking for a timeframe, and 
from reading some of the testimony, it has been at least nine 
years.
    Mr. Kenney. Yes, ma'am. We started an appraisal of the 
potential for the negotiated settlement in 1998. Mr. Larson 
made reference to the fact that when you don't have litigation 
the local parties are very cautious because it is a bit more of 
an open forum. To their credit, they did their homework, they 
studied, they asked questions, and they found common ground so 
that they could have a consensus agreement, and that is to be 
applauded.
    Mrs. Napolitano. And I am sure the Subcommittee also agrees 
to that. But in your expert opinion as a former member of the 
Bureau's team, what would you feel is the timeframe to be able 
to get this accomplished if everybody were to come to the 
table?
    Mr. Kenney. I think that the timeframes that have been put 
forward are reasonable. I have been gone for about six months, 
but my understanding is the Department of Justice still has 
some legal analysis that they traditionally do in these water 
rights settlements. I don't think there is any reason why they 
shouldn't be able to do that in the next 30 to 60 days at the 
most.
    I know all the parties are ready to move forward because 
they have resolved their major issues, and except for some of 
these more demanding details as far as the technical questions 
that will arise around a storage facility and distribution 
facilities and how the river is going to perform when we put 
those facilities in place, I think that most of the major 
issues are done and we could see an agreeable consensus 
settlement within the next 30 days.
    Mrs. Napolitano. Thank you very much for stepping up to the 
plate and I appreciate your input, sir.
    Mr. Kenney. You are very welcome.
    Mrs. Napolitano. Thank you so very much. I will continue in 
a second round. Mr. Costa.
    Mr. Costa. Just a couple quick questions to H.R. 2498 to my 
witnesses, who again I want to thank for coming all the way 
from California for the hearing today, and you can both comment 
on this if you want. Mr. Moss, you might begin.
    I described in my opening statement the fact that we are in 
a perfect storm, and that is that Mother Nature gave us a 
tremendously dry year last year and then, of course, with the 
reduction of water availability as a result of the San Joaquin 
River restoration that you are familiar with as well as the 
Wanger decision that took place in August. Describe the impact, 
the long-term impact of the loss of water over the last 17 
years notwithstanding whatever merit that water, the 
redirection of that water may have taken in terms of what is 
the fastest-growing region in California?
    Mr. Moss. A couple of things come to mind. One is relative 
to the short-term. It is on the verge of panic in much of the 
valley right now for those growers who are farming lands with 
tenuous water supplies, especially permanent plantings where 
they really don't know where their next water supply is going 
to come from.
    Much of the state water project's intent, much of the 
Central Valley project's intent was to provide a balanced water 
supply to the region, enough water to meet the long-term needs 
of the region, and that clearly is not the case anymore. We 
have been borrowing from our savings account. Our savings 
account is the groundwater, and it tells our balance on an 
ongoing basis of how good a job of water management we are 
doing, and it is going down. There is no question about that. 
It is a critically overdrafted area, and the consequence of 
that is eventually we will be in litigation.
    I mean, we have heard a lot this morning about trying to 
avoid litigation, but an adjudication of the groundwater basin 
is clearly in the offing as people chase groundwater down and 
it becomes economical to pump. So on a long-term basis, it is 
not a good picture. We need more water for the region to 
sustain our growth.
    Mr. Costa. For the population growth in the cities and to 
maintain the farms?
    Mr. Moss. Absolutely. All of our cities are dependent, 
virtually all of them are dependent upon a depleting 
groundwater source, and quite frankly, I am concerned that they 
won't be able to find that they have a long-term sustainable 
supply to support new development. People want to put holes in 
the ground to support new subdivisions and are not able to.
    Mr. Costa. Well, we have legislation I passed on the state 
legislation years ago a requirement that local entities have to 
first identify their water source before they provide a will 
serve letter to allow the permit for the building to take place 
under the theory that you don't build a subdivision without 
building the roads.
    Mr. Moss. Right.
    Mr. Costa. Why would you build a subdivision without making 
sure you have the water?
    Mr. Moss. Well, that legislation has served, quite frankly, 
as a wake-up call to a lot of our communities. For example, I 
just finished helping the City of Porterville with their urban 
water management plan, and they are projecting that they need 
to have new surface water sources to meet all of their future 
growth.
    Mr. Costa. The City of San Diego, I understand, attorney 
talked about a potential moratorium in light of the Wanger 
decision.
    Mr. Green, before my time expires, you want to quickly 
comment?
    Mr. Green. Yes. Thank you, Congressman.
    It is not a very well-kept secret, but there is a private 
water transfer process that occurs as a result of scarcity, and 
I can report reliably that water went up to $500 an acre foot 
for water that was needed to be put on permanent crops this 
past summer, and that is a real stiff bill to pay for irrigated 
agriculture.
    Mr. Costa. I understand. I would just make a comment to my 
friend with the Bureau as it relates to their earlier 
questioning on the Tule River and the length of time. I am just 
trying to understand the logic of this.
    Parties cooperate, they don't litigate, and it takes 
longer, so am I to deduce that if in fact people sue you that 
you act quicker? That is a rhetorical question, but frankly, it 
makes no sense. If folks are working with you that you wouldn't 
want to expedite the process and reward good behavior as 
opposed to putting that on the back burner, so that is one of 
the other things that I will add to my list.
    Thank you very much. I yield the balance of my time.
    Mrs. Napolitano. Thank you, Mr. Costa.
    I have a couple of questions and then I will defer to Mr. 
Nunes. To Mr. Green and Mr. Moss, what is your view of this 
assertion that the Bureau is fulfilling this need already?
    Mr. Moss. I quite frankly make a living out of interfacing 
with the Bureau of Reclamation on behalf of a number of 
clients, and they try very hard. Unfortunately, they are not 
that successful in terms of making CVP supplies a resource that 
can be used in an integrated fashion in some of this planning 
that we need to do and some of the implementation of those 
plans.
    It is very hard, for example, to do water transfers where 
we can move water to its highest and best use on a cooperative 
basis. Another example would be groundwater recharge and 
banking programs. The Central Valley project in 1992 proposed 
groundwater banking for the CVP, and we have yet to get rules 
and regulations to implement groundwater banking, and still 
waiting, which makes it very difficult to know how to put 
together groundwater banking program, which is everybody's 
solution for new storage in the San Joaquin Valley. Supported 
broadly, but yet we can't use Federal water, have difficulty in 
using Federal water to do so.
    Mrs. Napolitano. Mr. Quint, the same to you.
    Mr. Quint. In reading the language of the bill, we 
currently feel like a lot of the objectives of the bill are 
being met through other avenues out there, the various other 
authorities out there. So we respectfully disagree. The intent 
of it is good, but we figure most of those things are already 
being covered.
    Mrs. Napolitano. You heard Mr. Moss indicate that there are 
certain provisions that are not being addressed. Am I correct, 
sir? That is what I was asking.
    Mr. Quint. And we would be glad to talk with him and work 
with him in understanding that better.
    Mrs. Napolitano. Would you ensure that this Subcommittee 
also gets a copy of that update, please, sir?
    Mr. Quint. Certainly.
    Mr. Costa. Madam Chairwoman, if you would yield for a 
moment.
    Mrs. Napolitano. Yes.
    Mr. Costa. Mr. Quint, I beg to differ with you. The problem 
is, yes, you have certain water districts that are doing 
different things within their area, but there is no 
coordination in a regional effort, and it is a region, and we 
get dewatered or we get water reallocated as a region, not on a 
district-by-district basis.
    So while it is accurate for you to say that some of this is 
taking place on a district-by-district basis, I would say it is 
very vague in terms of the degree, Madam Chairman. But the fact 
of the matter is, while we act locally oftentimes, we have to 
act as a region. That is what the CALFED record of decision 
stipulated. It is very difficult to get all these water 
agencies to act as a region. They don't have the umbrella of 
the Metropolitan Water District that brings everybody together.
    So for you to say, yes, some of this stuff is being done, 
well, yes, some of this stuff is being done, but there is no 
effort to coordinate that area in an eight-county basis.
    Thank you, Madam Chairman, for yielding.
    Mrs. Napolitano. Thank you. Mr. Nunes.
    Mr. Nunes. Thank you, Madam Chairwoman. I just want to 
follow up on Mr. Costa's question there.
    Mr. Quint, I do want to say please ask the political 
appointees down there at the Interior Department to come out of 
hiding and come and testify. This is an important issue, and I 
know that they put you in a very awkward situation. But there 
is no question that in fact, no one is paying attention to the 
very points that Mr. Moss brings up, which is that in parts of 
the San Joaquin Valley, you have a massive overdraft of the 
water supply, which is why Mr. Costa and the rest of the valley 
delegation have said, look, we have to look at this because no 
one is doing this work, and if we don't start doing this work, 
we are going to have major environmental problems because of 
this problem of the overdraft of the groundwater aquifer.
    So I hope that you will take this message back to your 
people over there that are hiding in the Interior Department, 
ask them to come out of their hole. These political appointees 
should not be sending you up here. They are supposed to make 
tough decisions, and they have made some tough decisions that I 
hope you will take this back too also, that without, and I 
don't want to get in the San Joaquin River fight here, but the 
San Joaquin River settlement, which has not been implemented by 
this Congress, has now been funded. They are funding that 
settlement as you speak. You guys have put a contract out there 
on this and you are funding it.
    I think it is outrageous because you are going to take an 
additional 22 percent of Class 2 supply and 8 percent of Class 
1 supply, and I think, Mr. Moss, I mean, if you can comment on 
this. If you take 22 percent of Class 2 supply and 8 percent of 
Class 1 supply, what is it going to do to the groundwater table 
in the east side of the San Joaquin Valley?
    Mr. Moss. Well, every acre foot of surface water that you 
remove from the system is another acre foot of overdraft. It 
directly equates.
    Mr. Nunes. It just adds to the problem.
    Mr. Moss. It makes it significantly worse.
    Mr. Nunes. And in your opinion, I mean, no one is looking 
at this right now. That is why Mr. Costa has tried to bring 
this plan forward, because no one is dealing directly with this 
problem.
    Mr. Moss. Not in an integrated comprehensive way across the 
valley. You are right. There are groundwater management plans 
under state law that many districts are implementing and 
looking at, but nobody has that big picture, broad San Joaquin 
Valley view that we will look at all of these problems in an 
integrated fashion, and that is what this effort is all about.
    Mr. Nunes. All right. Well, I just want to thank Mr. Costa 
for his leadership on this effort, and I am glad to be a part 
of it, and Mrs. Napolitano, thank you for having me back at 
your committee. It is great to be back.
    Mrs. Napolitano. Thank you, sir, and I appreciate that. A 
few other questions and then I will be done with this, and 
these questions will be for Mr. Green and Mr. Moss. How does 
the Federal funding authorization fit in the state and local 
funding? They maintain that there is no match, no support.
    Mr. Green. Well, we beg to differ. In my testimony, I had 
an attachment that showed a map that represents what is 
happening in the State of California. As the Subcommittee is 
undoubtedly aware, California has passed a number of bond 
issues that have significant--yes, that is the map. There are a 
number of bond issues that have invested heavily in water in 
California, 1350, 84, 1E, and now there is another one being 
proposed in the very near future.
    And if you look at that map down in the left-hand corner, 
there is specific funding designated for the San Joaquin 
Valley, the San Joaquin River Hydrologic Region and the Tulare 
Lake Region for the total amount of $117 million, and that is 
for integrated regional planning to do the very thing that we 
are discussing today.
    What we are asking for is to assist in the facilitation 
process to spend some of that money. And at California Water 
Institute of Fresno State, we have already received a seed 
grant of $167,000 from the Governor's Partnership for the San 
Joaquin Valley. He has commissioned a more holistic approach to 
the problems in the San Joaquin Valley, much like the Federal 
Interagency Task Force that has worked on the San Joaquin 
Valley for a number of years. In fact, those two processes are 
being merged to the extent we can.
    So we already have at the California Water Institute some 
money to proceed on this. We have also invested our time and 
energy in talking with the California Department of Water 
Resources. They have made some preliminary commitments, and we 
intend to fully match the $1 million with funds from the State 
of California to assist in this facilitation effort.
    Mrs. Napolitano. And the relationship between your process 
and the California's Bulletin 160 water planning process?
    Mr. Moss. I might address that. The Bulletin 160 process 
occurs once every five years and really takes a snapshot of how 
the state in its entirety is doing in making its water supplies 
meet its needs, so it is a look at the needs and a look at the 
available supplies to see how well they are matching up. It 
really isn't a plan of action, and the integrated regional plan 
that we are intending to put forward is one which will define 
actions and activities that go on to meet our San Joaquin 
Valley needs. So one is a snapshot and the other is an action 
plan.
    Mrs. Napolitano. But how does the study prepare for water 
changes both because of climate change and the company 
decreases in the water supply and then of course a drought?
    Mr. Moss. Those are all issues that add to the list of 
things that we need to deal with and will have to be addressed 
as part of our integrated regional planning efforts. The 
potential of climate change to call for the reoperation of our 
rivers, of our dams to provide more flood protection is a real 
concern for the water supply folks, and that is why we need to 
have ongoing discussions between the flood control interests 
and the water supply interests on an integrated fashion to be 
able to address these issues. Otherwise, there is the potential 
for somebody's ox to get gored for the benefit of someone else, 
and we have to work those issues out regionally and locally.
    Mrs. Napolitano. Would you then think that Congressman 
Costa's bill of being able to bring everybody to the table 
would be helpful in being able to address some of those 
concerns?
    Mr. Moss. Absolutely. It is the only thing that is out 
there right now in terms of the region truly acting on an 
integrated fashion.
    Mrs. Napolitano. Is there any precedent for such a study? 
Have you heard?
    Mr. Moss. Well, kind of the model that everyone is trying 
to follow is the Santa Ana River Watershed Project model, the 
SAPA model that really took interests that were pretty diverse 
and in the middle of litigation, and quite frankly, my 
understanding is they got tired after 15 or 18 years of 
litigation to start working cooperatively and created their 
integrated regional water management plan, and that is the 
model, quite frankly, that most of the state now is trying to 
track, including ourselves.
    Mrs. Napolitano. Well, thank you so very much for your 
assistance in giving the testimony that sheds more light onto 
these pieces of legislation.
    Mr. Costa, any further? Mr. Nunes, any further?
    Mr. Costa. Three good bills, that is what I think.
    Mrs. Napolitano. Did you hear that, Mr. Quint?
    Mr. Quint. Yes, ma'am.
    Mrs. Napolitano. Thank you, sir, and they know they are on 
the hot seat when they come into this committee, so that is 
nothing new to them. I know it is not your fault and I know 
that it goes further up, but we need to impress upon the 
administration and all in DOJ, OMB and BOR and Interior the 
importance of preparing our communities for global warming and 
the drought cycles that we are facing and the 100-year proposed 
or projected hotter weather.
    Somehow this is now being equated with economy, with 
peoples' health, with just a whole slew of things, and you can 
hear the same thing over and over again. I hear it every 
committee hearing, and somehow we need to bring everybody to 
the table and begin to look at how we can work together to 
increase the budget and put priorities on those areas that are 
going to be specifically in dire need of assistance.
    This concludes the Subcommittee's legislative hearings on 
H.R. 123, on H.R. 2498 and H.R. 2535. I thank all of our 
witnesses for being with us and for traveling to be with us to 
offer their perspectives on these three bills. Your expertise 
has been very helpful, and you have shed a lot of light on some 
of the issues that we have gone through.
    Under Committee Rule 4[b], additional material for the 
record should be submitted within 10 business days after today, 
and appreciate your cooperation and the witnesses by responding 
as promptly as you may.
    The hearing is now adjourned. Thank you.
    [Whereupon, at 1:03 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

           Chronology of Events Affect CVP/SWP Water Supplies

1992 -- Enactment of CVPIA
    Section 3406(d) -- Reallocated water from south-of-Delta CVP ag 
service contractors to Level 2 Refuge Supplies: 156,000 acre-feet
1994 -- Bay-Delta Accord
    South-of-Delta CVP and SWP contractors agreed to dedicate, on a 
temporary basis, water to Delta fisheries restoration: 500,000 acre-
feet for both CVP and SWP contractors in a dry year. The Accord 
provided that management of CVP water under the Accord to be counted 
toward section 3406(b)(2) obligation. (Reduced south-of-Delta CVP and 
SWP contract reliability by approximately 25%)
1997 -- Decision on Implementation of CVPIA section 3506(b)(2)
    November 1997 and subsequent decisions prescribed management of 
section 3406(b)(2): 183.000 - 275,000 acre-feet. (Reduced south-of- 
Delta CVP contract reliability by an additional 10- 15%.)
2000 -- Trinity River Record of Decision
    Prescribed new flow criteria for Trinity River: 100,000 - 600,000 
acre-feet depending on year type (Average supply reduction for south-
of-Delta CVP contractors approximate 5% (91,500 acre-feet).)
2006 -- Proposed San Joaquin River Restoration Agreement Impact - 
        165.000 acre-feet.
2007 -- Wanger Decision
    Prescribed additional actions to protect Delta smelt: Water cost 
uncertain, but projections for 2008 south-of-Delta CVP contract 
allocations are 10 - 45%, with similar to greater reductions in 
allocations for SWP contractors. (Est. - 900,000 to 1 Million acre-
feet)
Impacts of Wanger Decision on other regions.
    <bullet>  Southern California estimated to be losing 12% of their 
supply in a wet year and up to 37% in a dry year.
    <bullet>  Santa Clara likewise is estimated to lose 12% in a wet 
year and up to 37% in a dry year of their State contracted water. Santa 
Clara has the distinction of being impacted by both State and Federal 
Contracts, so there will be loss on the Federal side as well.
    <bullet>  Areas such as East Bay Mud and Contra Costa who receive 
supplies from the Delta will be unaffected.
    <bullet>  San Francisco which sources its water supply from the 
same tributary system north of the Delta that the exporters rely on 
will have no impact.
    <bullet>  The near 1800 unscreened in-Delta diversions taking as 
much as 5000cfs during peak months are not addressed.
    <bullet>  Power plants take up to 3200cfs on an on-going basis 
through unscreened diversion. (Status and Trends of Delta -Suisun 
Services, DWR May 2007, pg 18,19) Not addressed.
                                 ______
                                 
    [A letter submitted for the record on H.R. 123 by Charles 
P. Fuentes, City Manager, City of Pico Rivera, California, 
Frederick W. Latham, City Manager, City of Santa Fe Springs, 
California, and Steve Helvey, City Manager, City of Whittier, 
California, follows:]

August 16, 2007

The Honorable Grace F. Napolitano
Representative, 38th District of California
1610 Longworth Building
Washington, DC 20515

SUBJECT: WATER QUALITY PROTECTION PROJECT (WQPP) AND H.R. 123

Dear Congresswoman Napolitano;

    For nearly 30 years, the federal government and local water 
agencies have been working to address an underground plume of 
contaminated -water that has been slowly moving southeast from the 
Upper San Gabriel Valley region, which is a Superfund site. The 
contamination resulted from the release of volatile organic compounds 
(VOCs), e.g., chemicals for degreasing, dry cleaning, metal cleaning, 
etc., into the soil.
    According to the United States Environmental Protection Agency 
(USEPA), the initial discovery of contamination occurred in 1979. USEPA 
began investigating groundwater in the Whittier Narrows area of the San 
Gabriel Superfund sites in the late 1980s. A remedial investigation/
Feasibility Study was completed in 1992. During 1997-98, increasing VOC 
concentrations led to additional fieldwork by USEPA.
Whittier Narrows Operational Unit (WNOU)
    Design of a remedial facility in the Whittier Narrows area was 
completed by USEPA in 2001. Construction of extraction wells, 
conveyance pipelines, and a treatment plant began in 2001 and was 
completed in May 2002. The treatment facility was designed to clean up 
contamination in the Whittier Narrows and to prevent contaminated 
groundwater from moving into the Central Basin.
    However, even before construction of the WNOU treatment plant 
began, groundwater monitoring data showed that the level of PCEs 
(tetrachloroethylene) exceeded the maximum contaminant levels (MCL) in 
wells south of the Whittier Narrows Dam, i.e., the underground plume of 
contaminated water had already migrated past the site of the WNOU's 
extraction wells. Moreover, the WNOU treatment plant did not become 
fully operational until December 2005. (The City of Whittier receives 
the treated water from the WNOU treatment facility.)
    The San Gabriel and Rio Hondo Coastal Spreading Grounds are located 
south of the Whittier Narrows Dam and are adjacent to the cities of 
Pico Rivera, Whittier, and Santa Fe Springs. These spreading grounds, 
operated by Los Angeles County, utilize storm water, imported water and 
recycled water to replenish the groundwater supply in the Central 
Basin. Thus, we have been concerned for many years that the source of 
the cities' drinking water could be contaminated by the underground 
plume of contaminated water migrating south from the Whittier Narrows 
area.
Water Qualify Protection Project (WQPP)
    The Southeast Water Coalition (SEWC), a joint powers authority, was 
formed by local cities and the Water Replenishment District (WRD) in 
1991 to improve the quality and quantity of the regional water supply. 
The Cities of Pico Rivera and Whittier are founding members of SEWC. 
SEWC was then, and is now, very concerned about the passage of the 
underground plume into the Central Basin and the Montebello Forebay.
    SEWC approached Central Basin Municipal Water District (CBMWD) 
several years ago and requested the District's assistance regarding 
this issue. CBMWD was able to obtain $10 million in funding from the 
federal Bureau of Reclamation for the WQPP, which meant that local 
cities did not have to pay for the project.
    The WQPP was constructed to monitor and intercept water entering 
the Central Basin from the Upper San Gabriel Valley region. CBMWD 
designed and constructed two extraction wells, a treatment facility, 
and distribution lines, all located in the City of Pico Rivera. Each of 
the three cities entered into agreements with CBMWD regarding purchase 
of treated water from the WQPP project. Under the agreement, the Cities 
agreed to convey a certain amount of its water rights to the CBMWD, 
which pumps the conveyed rights from the extraction wells and treats 
the pumped water.
    For example, the City of Pico Rivera agreed to take a maximum of 
2,800 acre-feet (AF) of water from CBMWD each year for 10 years at a 
cost of $40 per AF. In addition to this fee the City also pays a fee to 
WRD for every AF pumped.
    In October 2004, CBMWD received its domestic drinking water permit 
from the State to distribute the treated water to the cities of Pico 
Rivera, Santa Fe Springs and Whittier. Distribution began in December 
2004.In May 2007, after nearly three years of operating the WQPP, CBMWD 
announced that, due to the cost of operating the WQPP, it would cease 
water production. CBMWD cited two reasons for the stoppage in 
production: the Levels of VOCs that were originally cited to be a 
concern had not exceeded allowable levels for the last two years; and, 
operating costs were much higher than expected.
    After initial discussions with the three cities, who remain 
concerned about the potential threat to groundwater in the Central 
Basin, CBMWD agreed to work with the cities regarding formation of a 
joint powers authority (JPA), comprised of the three cities, that would 
own and operate the WQPP. The three cities have three months to 
determine the viability of a JPA, including whether additional 
customers for WQPP water could also be identified. In addition, during 
that three-month period, CBMWD would operate the WQPP facilities with 
the cities paying $250 per AF. CBMWD would pay for any net operating 
losses.
    Groundwater monitoring data from the WQPP shows that allowable 
levels of VOCs have not been exceeded during the last two years; 
however, the prudent course would be to continue operating the WQPP due 
to the potential harm to the Central Basin and the Montebello Forebay 
from the underground plume of contaminated water. For example, as 
recently as January 2005, the level of PCEs (tetrachloroethylene) 
exceeded the MCL.
    The 2001 Design Report for the WQPP states (Page 1-3):
    It is estimated that continuous pumping would be required for S to 
7 years assuming that EPA begins operation of the containment 
extraction wells in the Whittier Narrows within 2 years.
    However, the WNOU treatment facility did not become fully 
operational in 2003; as stated previously, that occurred in December 
2005, after the WQPP became operational. Again, given the substantial 
federal investment in both WNOU and WQPP, if the WQPP facility is shut 
down, and MCLs are exceeded in the future in the area south of Whittier 
Narrows Dam, it would leave the cities with no recourse and would 
threaten water quality in the Central Basin.
    Although the cost of WQPP water would still be significantly higher 
for the cities of Pico Rivera, Santa Fe Springs and Whittier than the 
current $40 per acre-foot, it would still remain lower than the cost of 
imported Metropolitan Water District (MWD) water, which is currently 
$527 per acre-foot and scheduled to increase to $557 in January 2008. 
In addition, if the member cities of the JPA cannot use all the treated 
water available from the WQPP, other local water agencies, e.g., Pico 
Water District, which serves 1/3 of the City of Pico Rivera, would be 
able to purchase water for less than the MWD rate.
    Therefore, on behalf of the cities of Pico Rivera, Santa Fe Springs 
and Whittier, we strongly urge inclusion of additional federal funding 
for operation of the WQPP in H.R. 123, which is before your committee. 
Note: it may be necessary for such funding to ``pass through'' CBMWD to 
the JPA in the first year, but in subsequent years, the funding could 
go directly to the JPA.

Sincerely,

Charles P. Fuentes
City Manager, City of Pico Rivera

Frederick W. Latham
City Manager, City of Santa Fe Springs

Steve Helvey
City Manager, City of Whittier

cc: Art Aguilar, General Manager, CBMWD
                                 ______
                                 
    [A letter submitted for the record by The Honorable Owen 
Newcomer, Mayor, City of' Whittier, California, follows:]

City of' Whittier
13230 Penn Street
Whittier, California 90602-1772
(562) 945-8200 www.cityofwhittier.org

July31,2007

The Honorable Grace Napolitano
Congresswoman, 38th District
1610 Longworth House Office Building
Washington, DC 20515

Dear Congresswoman Napolitano:

    We are seeking your support for inclusion into H.R. 123 funds for 
the Water Quality Protection Project constructed and operated by 
Central Basin Municipal Water District. The WQPP, which has been the 
recipient of federal funding throughout its existence thanks largely to 
your efforts, is essential to protecting the groundwater quality of the 
Central Basin.
    The WQPP was constructed to monitor and intercept water entering 
the Central Basin from the highly contaminated Upper San Gabriel Valley 
region, which is a Superfund site. The project came about when the 
Southeast Water Coalition, a consortium of cities which utilize 
groundwater in the Basin, realized that if such contaminated water were 
to reach the Basin's spreading grounds in Pico Rivera, the results 
could be catastrophic for some cities. The Central Basin is blessed 
with a good supply of quality groundwater for our residents. If 
contamination of the Basin water was to occur, the results would be a 
scarcity of drinking water that would force us to rely on more 
expensive, lower quality imported water that is subject to supply 
shortages during this time of drought.
    Additional funding is needed now to keep the WQPP going to protect 
our Basin's water supply. Since the main EPA wells intercepting 
pollution in the Upper San Gabriel Valley have been running for a 
relatively short time, it is too early to determine when, if and how 
much contamination may yet enter our Basin. The WQPP will ensure that 
this area's spreading grounds will remain clean and safe and that our-
residents can be-assured of a safe, clean water supply.
    We thank you for your consideration to include additional funding 
for the WQPP in H.R. 123. Please feel free to contact our City Manager, 
Steve Helvey, at (562) 464-3301 if you need any further information.

Sincerely,

Owen Newcomer
Mayor
                                 ______
                                 
    [A letter submitted for the record on H.R. 2498 by David 
Reynolds, Director of Federal Relations, Association of 
California Water Associations, follows:] 

[GRAPHIC] [TIFF OMITTED] T8016.001

    .eps[A letter submitted for the record on H.R. 2535 by R.L. 
Schafer, Tule River Association, follows:]


[GRAPHIC] [TIFF OMITTED] T8016.011

                               ------                                

    [A letter submitted for the record on H.R. 123 by Hon. 
Joseph D. Serrano, Mayor, City of Santa Fe Springs, California, 
follows:]

City of Santa Fe Springs
11710 Telegraph Road * CA * 90670-3679
(562) 868-0511 * Fax (562) 868-7112 * www.santafesprings.org

August 3, 2007

The Honorable Grace Napolitano
1610 Longworth House Office Building
Washington, D.C. 20515
Attention: Dan Chao

Subject: H.R. 123--Water Quality Protection Project

Dear Grace:

    We are seeking your support for inclusion into H.R. 123 funds for 
the Water Quality Protection Project constructed and operated by 
Central Basin Municipal Water District. The WQPP, which has been the 
recipient of federal funding throughout its existence thanks largely to 
your efforts is essential to protecting the groundwater quality of the 
Central Basin, particularly for our City.
    The WQPP was constructed to monitor and intercept water entering 
the Central Basin from the highly contaminated Upper San Gabriel Valley 
region, which is a Superfund site. The project came about when the 
Southeast Water coalition, a consortium of cities which utilize 
groundwater in the basin, realized that if such contaminated water were 
to reach the Basin's spreading grounds in Pico Rivera the results could 
be catastrophic for cities such as ours. The Central Basin is blessed 
with a good supply of quality groundwater for our residents. If 
contamination of the basin water was to occur the results would be a 
scarcity of drinking water that would force us to rely on more 
expensive, lower quality imported water that is subject to supply 
shortages during this time of drought.
    Additional funding is needed now to keep the WQPP project going to 
protect our basin's water supply. Since the main EPA wells intercepting 
pollution in the Upper San Gabriel Valley have been running for a 
relatively short time, it is too early to determine when, if and how 
much contamination may yet enter our basin. The WQPP will ensure that 
this area's spreading grounds will remain clean and safe and that our 
residents can be assured of a safe, clean water supply.
    We thank you for your consideration to include additional funding 
for the WQPP in H.R. 123. Please feel free to contact Fred Latham, City 
Manager if you need any further information.

Respectfully,

Joseph D. Serrano, Sr.
Mayor

cc:  Honorable City Council
    Fredrick W. Latham, City Manager
    Donald K. Jensen, Director of Public Works

                                 <all>

</pre></body></html>
